 SIGAR                           Special Inspector General for
                                  Afghanistan Reconstruction




                                           SIGAR Financial Audit 13-09




         USAID’s Alternative Development Project
         South/West: Audit of Costs Incurred by Tetra
         Tech ARD




                                                      JULY
                                                        2013
SIGAR Financial Audit 13-09
July 18, 2013

Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Ms. Sarah W. Wines
Acting Mission Director for Afghanistan
U.S. Agency for International Development

This letter transmits the results of our audit of costs incurred by Tetra Tech ARD (ARD) under a USAID contract,
“Alternative Development Project South/West (ADP/SW).” 1 The audit covered the period March 5, 2008,
through March 4, 2011, and was performed by Mayer Hoffman McCann P.C. It covered $75,133,550 in
expenditures.

The purpose of the ADP/SW program was to reduce dependence on opium production in the south and west of
Afghanistan by identifying and implementing alternative opportunities for economic development. The program
sought to increase agriculture productivity, build relationships between farmers and the market, strengthen the
capabilities of the Ministry of Agriculture, Irrigation and Livestock, and rebuild agriculture infrastructure.
The specific objectives of this financial audit were to
    •    render an opinion on the fair presentation of ARD’s Fund Accountability Statement; 2
    •    determine and report on whether ARD has taken corrective action on recommendations from prior
         audits or assessments;
    •    identify and report on significant deficiencies, including any material weaknesses, in ARD’s internal
         control over financial reporting; and
    •    identify and report on instances of material noncompliance with terms of the award and applicable
         laws and regulations.
In contracting with an independent audit firm and drawing from the results of its audit, SIGAR is required by
auditing standards to provide oversight of the audit work performed. Accordingly, SIGAR reviewed Mayer
Hoffman McCann’s audit results and found them to be in accordance with generally accepted government
auditing standards.
Mayer Hoffman McCann issued a qualified opinion on the fairness of the presentation of the Fund
Accountability Statement based upon the identification of $3,041,819 of questioned costs, which represents a
material misstatement of the Fund Accountability Statement. Mayer Hoffman McCann identified two findings
from prior audits or assessments where adequate corrective action had not been taken; however, they were
not included in this report because the specific conditions of the findings were not present during the audit. In
addition, Mayer Hoffman McCann reported four internal control deficiencies and three instances of




1 USAID contract number 306-C-00-08-00515-00 was designed to provide Afghan communities with economic options

other than the illicit drug trade.
2 The Fund Accountability Statement is a special purpose financial statement that includes all revenues received, costs

incurred, and any remaining balance for a given award during a given period.
noncompliance, which prompted the auditors to question the $3,041,819 in costs. These questioned costs
included $2,080,806 in ineligible costs 3 and $961,013 in unsupported costs. 4 See table 1 below.
Table 1 - Summary of Questioned Costs
                                                Questioned Costs
                   Category                                                     Ineligible               Unsupported
                                                      Total

 Salaries and wages                                            $27,067                                             $27,067

 Fringe benefits                                               $53,105                  $53,105

 Subcontracts                                                  $79,325                                             $79,325

 Grants                                                     $745,615                                              $745,615

 Travel and transportation                                     $16,606                                             $16,606

 Other direct costs                                            $58,714                                             $58,714

 Indirect costs                                             $293,031                   $259,345                    $33,686

 Costs in excess of the CLIN                              $1,768,356                 $1,768,356

 Totals                                                   $3,041,819                 $2,080,806                   $961,013

Given the results of the audit, SIGAR recommends that the Contracting Officer:
    1. Determine the allowability of and recover, as appropriate, $3,041,819 in questioned costs
       ($2,080,806 ineligible and $961,013 unsupported) identified in the report.

    2. Advise ARD to address the four internal control findings identified in the report.
    3. Advise ARD to address the three compliance findings identified in the report.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction

(F007)



3 Ineligible costs are costs that the auditor has determined to be unallowable. These costs are recommended for exclusion

from the Fund Accountability Statement and review by USAID to make a final determination regarding allowability.
4 Unsupported costs are those costs for which adequate or sufficient documentation necessary for the auditor to determine

the propriety of costs was not made available.




                                                           2
               TETRA TECH ARD

      Financial Audit of Costs Incurred under
       Contract No. 306-C-00-08-00515-00

For the Period March 5, 2008 through March 4, 2011
                                    TETRA TECH ARD

                            Financial Audit of Costs Incurred under
                             Contract No. 306-C-00-08-00515-00

                     For the Period March 5, 2008 through March 4, 2011


                                      Table of Contents


                                                                          Page
Summary:
 Background                                                                1
 Objectives, Scope and Methodology                                         2
 Summary of Results                                                        4
 Review of Prior Findings and Recommendations                              7

Independent Auditor’s Report on Fund Accountability Statement              10

Fund Accountability Statement                                              12

Notes to Fund Accountability Statement                                     13

Independent Auditor’s Report on Internal Control                           21

Independent Auditor’s Report on Compliance                                 23

Findings and Responses                                                     24

Appendix A: Review of Prior Findings and Recommendations                   34

Appendix B: ARD Response to Findings                                       54
                                     TETRA TECH ARD

                             Financial Audit of Costs Incurred under
                              Contract No. 306-C-00-08-00515-00

                      For the Period March 5, 2008 through March 4, 2011


SUMMARY

Background

The Special Inspector General for Afghanistan Reconstruction (SIGAR) contracted with Mayer
Hoffman McCann P.C. (MHM) to perform a Financial Audit of Costs Incurred of Contract No.
306-C-00-08-00515-00 (Contract) between Tetra Tech ARD (ARD) and the United States
Agency for International Development (USAID) for the period March 5, 2008 through March 4,
2011.

In March 2008, USAID/Afghanistan awarded a contract to Tetra Tech ARD to execute the
Alternative Development Project South/West (ADP/SW). The purpose of the ADP/SW Program
was to reduce the economic dependence of Farah, Nimroz, Uruzgan, and Helmand provinces
on opium production, processing and trade by helping communities to identify and seize
meaningful opportunities to reduce vulnerabilities, improve incomes and create lasting jobs
through the licit economy while reinforcing the economic and institutional infrastructure on which
these opportunities depend.

The ADP/SW was a three year, $75 million program funded by USAID that eventually operated
in three provinces of southern and western Afghanistan: Farah (2008 through 2011), Helmand
(2009 through 2011), and Uruzgan (2009 through 2011). Operations were also conducted in
Balkh, Jawzjan, and Gohr provinces, but were cancelled by USAID within months after the
program started in year one (2008), due to a change in USAID strategy. Operations in Nimroz
province were authorized in year two, but subsequently suspended by USAID by the end of year
two. The original Contract was for a 2-year period of performance, with a 1-year extension.
The total amount of the original Contract was $55,133,597. The Contract was amended 13
times, which extended the period of performance through March 4, 2011 and increased the total
amount of the Contract to $75,133,597.

The implementation of ADP/SW was tailored closely to support the broader goals of USAID
Agricultural Strategy for Afghanistan, which is to increase agricultural sector jobs and incomes
and to increase the confidence of Afghans in their government.

Within these goals, ADP/SW’s activities were designed to address the following objectives. The
review of the performance of these objectives, however, was not included in the scope of this
audit.

   •   Increase agricultural productivity;
   •   Regenerate agribusiness by increasing linkages between farmers, markets and trade
       corridors;
   •   Rebuild and expand economic infrastructure to improve value chain linkages, such as
       urban market structures, feeder road repair, storage, irrigation, watersheds, and
       agribusiness facilities; and




                                                1
                                      TETRA TECH ARD

                             Financial Audit of Costs Incurred under
                              Contract No. 306-C-00-08-00515-00

                      For the Period March 5, 2008 through March 4, 2011


SUMMARY

   •    Increase the capacity of the Ministry of Agriculture, Irrigation and Livestock to deliver
        services to farmers and herders and promote the private sector and farmer associations.


Objectives, Scope and Methodology

Objectives

The objectives of the audit include the following:

   •    Internal Controls – Evaluate and obtain a sufficient understanding of ARD’s internal
        controls related to the award; assess control risk; and identify and report on significant
        deficiencies including material internal control weaknesses.

   •    Compliance – Perform tests to determine whether ARD complied, in all material
        respects, with the award requirements and applicable laws and regulations; and identify
        and report on instances of material noncompliance with terms of the award and
        applicable laws and regulations, including potential fraud or abuse that may have
        occurred.

   •    Corrective Action on Prior Audit Recommendations – Determine and report on whether
        ARD has taken adequate corrective action on prior external audit report
        recommendations or other external assessment recommendations.

   •    The Fund Accountability Statement (FAS) – Express an opinion on whether the FAS
        presents fairly, in all material respects, revenues received, costs incurred, items directly
        procured by the U.S. Government, and fund balance for the period audited in conformity
        with the terms of the award and generally accepted accounting principles or other
        comprehensive basis of accounting.


Scope

The scope of this audit included direct operating costs incurred during the period March 5, 2008
through March 4, 2011 under Contract No. 306-C-00-08-00515-00 between ARD and USAID.
Our testing of indirect costs was limited to determining that the indirect costs were calculated
using the correct provisional negotiated indirect cost rate for the given fiscal year, as approved
by USAID.




                                                 2
                                      TETRA TECH ARD

                            Financial Audit of Costs Incurred under
                             Contract No. 306-C-00-08-00515-00

                     For the Period March 5, 2008 through March 4, 2011


SUMMARY

Methodology

In order to accomplish the objectives of this audit, we designed our audit procedures to include
the following:
Entrance Conference

An entrance conference was held via conference call on December 17, 2012 with
representatives of ARD, SIGAR and USAID in attendance.

Planning

During our planning phase, we performed the following:

   •   Obtained an understanding of ARD;
   •   Reviewed award to ARD for the ADP/SW;
   •   Reviewed regulations specific to USAID and the award;
   •   Performed a financial reconciliation; and
   •   Selected samples based on our approved sampling techniques.

Internal Control Related to the FAS

We reviewed ARD’s internal controls related to the FAS. This review was accomplished
through interviews with management and key personnel, review of policies and procedures,
identifying key controls within significant transaction cycles, and testing those key controls.

Compliance with the Contract Requirements and Applicable Laws and Regulations

We reviewed the Contract and modifications and documented all compliance requirements that
could have a direct and material effect on the FAS. We assessed inherent and control risk as to
whether material noncompliance could occur. Based upon our risk assessment, we designed
procedures to test a sample of transactions to ensure compliance. .

Corrective Action on Prior Audit Recommendations

We requested all prior audit reports and recommendations provided in order to evaluate the
status of the prior audit recommendations by reviewing evidence of any corrective actions
taken. See the Review of Prior Audit Recommendations subsection of this Summary and
Appendix A for a status of applicable prior findings.

Fund Accountability Statement

In reviewing the FAS, we performed the following:


                                               3
                                    TETRA TECH ARD

                            Financial Audit of Costs Incurred under
                             Contract No. 306-C-00-08-00515-00

                     For the Period March 5, 2008 through March 4, 2011


SUMMARY

   •   Reconciled the costs on the FAS to the Contract and general ledger;
   •   Traced receipt of funds to the accounting records; and
   •   Sampled and tested the costs incurred to ensure the costs were allowable, allocable to
       the Contract and reasonable.

Exit Conference

An exit conference was held on March 7, 2013. Attendees included ARD, SIGAR and USAID.
During the exit conference, we discussed the preliminary results of the audit and established a
timeline for providing any final documentation for consideration and reporting.


Summary of Results

Our audit of the costs incurred by ARD under the Contract with USAID identified the following
matters:


Auditor’s Opinion on FAS

We issued a qualified opinion on the fairness of the presentation of the FAS based upon the
identification of $3,041,819 of questioned costs, which represents a material misstatement of
the FAS. The ultimate determination of whether the identified questioned costs are to be
accepted or disallowed rests with USAID.


Questioned Costs

There are two categories of questioned costs, ineligible and unsupported. Ineligible costs are
those costs that are deemed to not be allowable in accordance with the terms of the Contract
and applicable laws and regulations including Federal Acquisition Regulations (FAR) and
USAID Acquisition Regulations (AIDAR). Unsupported costs are those costs for which no or
inadequate supporting documentation was provided for our review. A summary of questioned
costs are as follows.


Ineligible Costs

   •   ARD incurred costs for individual Contract Line Item Numbers (CLINs) in excess of the
       approved budget, which resulted in ineligible costs of $1,768,356. See Finding 2013-1
       in the Findings and Responses section of this report.



                                              4
                                       TETRA TECH ARD

                             Financial Audit of Costs Incurred under
                              Contract No. 306-C-00-08-00515-00

                      For the Period March 5, 2008 through March 4, 2011


SUMMARY

   •    ARD claimed indirect costs based on the pre-determined amount from the original
        agreement. When a provisional indirect cost rate was approved by its Cognizant
        agency, ARD applied the new rates from that point on. However, ARD failed to
        retroactively adjust the indirect costs claimed in the previous period to align with the new
        approved provisional rates, which resulted in ineligible fringe benefits and material
        handling costs of $53,105 and $259,345, respectively. Total questioned indirect costs
        were $312,450. See Finding 2013-4 in the Findings and Responses section of this
        report.

Unsupported Costs

   •    Expenses incurred for subcontractors, travel and transportation, other direct costs, and
        Cooperating Country National/Third Country National CCN/TCN local wages were not
        adequately supported or were insufficiently supported, which resulted in questioned
        costs of $181,712, plus the applicable overhead, material and handling fee, and general
        and administrative (G&A) expenses of $26,155 (Total questioned cost is $207,867. See
        Finding 2013-2 in the Findings and Responses section of this report.

   •    Cash-for-Work (CFW) payments from March 5, 2008 through December 31, 2008
        disclosed irregularities for distributing payments to local Afghan workers through the use
        of identical fingerprints on timesheets. These costs have been questioned due to the
        inability to confirm that the fingerprints represent the various local workers’
        acknowledgement of payment for services rendered. Total CFW payments during this
        period were $745,615, plus the applicable material handling fee of $7,531. Total
        questioned cost is $753,146. See Finding 2013-3 in the Findings and Responses
        section of this report.

Total questioned costs are as follows:

       Ineligible costs                               $2,080,806
       Unsupported costs                                 961,013

        Total questioned costs                        $3,041,819


Internal Control Findings

Internal control findings are classified into three categories, deficiency, significant deficiency,
and material weakness. A deficiency in internal control exists when the design or operation of a
control does not allow management or employees, in the normal course of performing their
assigned functions, to prevent, or detect and correct, misstatements on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in an internal control that


                                                 5
                                       TETRA TECH ARD

                             Financial Audit of Costs Incurred under
                              Contract No. 306-C-00-08-00515-00

                      For the Period March 5, 2008 through March 4, 2011


SUMMARY

is less severe than a material weakness, yet important enough to merit attention by those
charged with governance. A material weakness is a deficiency, or a combination of
deficiencies, in an internal control, such that there is a reasonable possibility that a material
misstatement of the FAS will not be prevented, or detected and corrected on a timely basis. A
summary of the internal control findings noted as a result of the audit are as follows:

Material Weaknesses

No material weaknesses were reported.

Significant Deficiencies

The following significant deficiencies were reported:

       Finding                                                                          Auditee’s
       Number              Internal Control Finding – Significant Deficiency           Concurrence
       2013-1       Amounts reported in three of the four CLINs exceeded the            Disagree
                    approved budget and resulted in ineligible costs of
                    $1,768,356. Additionally, ARD was not able to provide a
                    crosswalk from the Excel file to the individual (CLINs) in the
                    Contract. The total of the individual costs and the total of
                    all CLINs were in agreement. As such, the FAS was
                    reported on a cost category basis instead of by CLIN.

       2013-2       Expenses incurred for salaries and wages, subcontractors,           Disagree
                    travel and transportation and other direct costs were not
                    adequately supported or were insufficiently supported
                    resulting in questioned costs of $207,867, which includes
                    associated overhead, material handling fee, and G&A
                    expenses of $26,155.

       2013-3       Lack of adequate support as proof-of-payment under Cash-            Disagree
                    for-Work Program resulted in questioned costs of
                    $753,146, which includes associated material handling fee
                    of $7,531.

       2013-4       ARD failed to retroactively adjust the indirect costs claimed       Disagree
                    in the previous period to align with the new approved
                    provisional rates. The failure to perform retro adjustments
                    resulted in ineligible costs for fringe benefits (full time) and
                    material handling of $53,105 and $259,345, respectively.
                    Total ineligible indirect costs claimed were $312,450.


                                                  6
                                    TETRA TECH ARD

                            Financial Audit of Costs Incurred under
                             Contract No. 306-C-00-08-00515-00

                     For the Period March 5, 2008 through March 4, 2011


SUMMARY

The complete management responses from ARD to these internal control findings can be found
in the Findings and Responses section of this report.

Deficiencies

No deficiencies were reported.


Compliance Findings

As part of obtaining reasonable assurance about whether the FAS is free from material
misstatement, we performed tests of its compliance with certain provisions of the Contract and
other laws and regulations, noncompliance with which could have a direct and material effect on
the determination of FAS. The results of our tests disclosed the following instance of non-
compliance.

      Finding                                                                   Auditee’s
      Number                         Compliance Finding                        Concurrence
      2013-1      Amounts reported in three of the four CLINs exceeded the      Disagree
                  approved budget and resulted in ineligible costs of
                  $1,768,356.

       2013-2     Expenses incurred for salaries and wages, subcontractors,      Disagree
                  travel and transportation and other direct costs were not
                  adequately supported or were insufficiently supported
                  resulting in questioned costs of $207,867, which includes
                  associated overhead, material handling fee, and G&A
                  expenses of $26,155.

       2013-3     Lack of adequate support as proof-of-payment under Cash-       Disagree
                  for-Work Program resulted in questioned costs of
                  $753,146, which includes associated material handling fee
                  of $7,531.



Review of Prior Findings and Recommendations

We reviewed the corrective action taken to address findings and recommendations from
previous engagements that could have a material effect on the FAS. ARD has not taken
adequate corrective action on all prior external audit report recommendations or other external
assessment recommendations.


                                              7
                                     TETRA TECH ARD

                            Financial Audit of Costs Incurred under
                             Contract No. 306-C-00-08-00515-00

                     For the Period March 5, 2008 through March 4, 2011


SUMMARY

USAID Review

Of the 78 findings identified in this review, ARD implemented adequate corrective actions to
resolve 76 of the findings. The remaining 2 findings have not had adequate corrective actions
taken in order for the findings to be considered resolved. The nature of these findings, however,
were such that they were related to specific instances that were not noted during our audit and
thus were not repeated as findings in this report.

USAID/Afghanistan staff from the Office of Financial Management and the Office of Acquisition
and Assistance conducted this review of ADP/SW’s financial, procurement and other systems in
April 2009. The following represents a summary of the conditions noted. The details related to
each finding and the adequacy of the corrective actions implemented can be found in Appendix
A to this report.

Financial Review

   •   The review contained 8 findings related to cashiering operations/fund management.

   •   The review contained 3 findings related to payments.

   •   The review contained 1 finding related to inventory.

   •   The review contained 3 findings related to allowances and benefits.

   •   The review contained 4 findings related to accounting and financial reporting.

   •   The review contained 2 findings related to procurement.

   •   The review contained 4 findings related to leases.

   •   The review contained 8 findings related to grants management.

   •   The review contained 4 findings related to internal control. Of the 4 findings, adequate
       corrective action had not been implemented for 1 of the findings and thus that finding
       has not been resolved. See Appendix A for details of the finding not implemented.

Procurement Review

   •   The review contained 3 general observations.

   •   The review contained 2 findings related to Subcontract No. ADP-NHB-001 with Noor
       Heravi Brothers Company, Ltd.


                                               8
                                    TETRA TECH ARD

                           Financial Audit of Costs Incurred under
                            Contract No. 306-C-00-08-00515-00

                    For the Period March 5, 2008 through March 4, 2011


SUMMARY

  •   The review contained 3 findings related to the Request for Application for Market Driven
      Veterinary Services. Of the 3 findings, adequate corrective action had not been
      implemented for 1 of the findings and thus that finding has not been resolved. See
      Appendix A for details of the finding not implemented.

  •   The review contained 3 findings related to the 1st subcontract with Sheer Peer for Farah
      Compound renovation contract SP-001:

  •   The review contained 3 findings related to subcontracts contract SP-002.

  •   The review contained 3 findings related to Rift Valley Agriculture Subcontract No. ADP-
      RVA-001 for agricultural trainings, extension and contract farming projects in Farah:

  •   The review contained 4 findings related to the Afghan Bena Subcontract.

  •   The review contained 3 findings related to the Flag International Subcontract.

  •   The review contained 8 findings related to the Tribal Liaison Office Subcontract.

  •   The review contained 4 findings related to the HDCAW Grant.

  •   The review contained 5 findings related to the Relief International Subcontract.




                                              9
Board of Directors
Tetra Tech ARD
159 Bank Street, Suite 300
Burlington, Vermont 05402



                          INDEPENDENT AUDITOR’S REPORT
                      ON THE FUND ACCOUNTABILITY STATEMENT


We have audited the Fund Accountability Statement of Tetra Tech ARD (ARD) for Contract No.
306-C-00-08-00515-00 (Contract) with the United States Agency for International Development
(USAID) for the period March 5, 2008 through March 4, 2011. The Fund Accountability
Statement is the responsibility of ARD’s management. Our responsibility is to express an
opinion on the Fund Accountability Statement based on our audit.

We conducted our audit of the Fund Accountability Statement in accordance with Government
Auditing Standards issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
Fund Accountability Statement is free of material misstatement. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the Fund Accountability
Statement. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall Fund Accountability
Statement presentation. We believe that our audit provides a reasonable basis for our opinion.

We identified several transactions totaling $3,041,819 that were questionable based upon our
review of the underlying support for the specified transactions. The ultimate determination of
whether the identified questioned costs are to be accepted or disallowed rests with the USAID.

In our opinion, except for the possible effects of the matters described in the preceding
paragraphs and the ultimate determination and resolution of the identified questioned costs, the
Fund Accountability Statement referred to above presents fairly, in all material respects,
program revenues, costs incurred and reimbursed, and items and technical assistance directly
procured by the United States Agency for International Development for the indicated period in
accordance with the terms of the contract and in conformity with the basis of accounting
described in Note 2.

In accordance with Government Auditing Standards, we have also issued our reports dated
June 21, 2013 on our consideration of ARD’s internal control over financial reporting and our
tests of its compliance with certain provisions of laws and regulations. Those reports are an
integral part of an audit performed in accordance with Government Auditing Standards and



                                              10
Board of Directors
Tetra Tech ARD
159 Bank Street, Suite 300
Burlington, Vermont 05402

should be read in conjunction with this Independent Auditor’s Report in considering the results
of our audit.

This report is intended for the information of Tetra Tech ARD, United States Agency for
International Development, and the Special Inspector General for Afghanistan Reconstruction.
Financial information in this report may be privileged. The restrictions of 18 USC 1905 should
be considered before any information is released to the public.




Irvine, California
June 21, 2013




                                              11
                                              TETRA TECH ARD
                                     Financial Audit of Costs Incurred under
                                      Contract No. 306-C-00-08-00515-00

                                          Fund Accountability Statement

                               For the Period March 5, 2008 through March 4, 2011



                                                                                      Questioned Costs
                                           Budget                 Actual           Ineligible  Unsupported     Notes
Revenues:
   306-C-00-08-00515-00               $     75,133,597        $ 75,133,154     $         -     $        -       (3)

Total revenues                              75,133,597            75,133,154             -              -

Costs incurred:
   Salaries and wages                         6,900,950            3,906,131             -           27,067     (4)
   Fringe benefits                              994,410              994,410          53,105            -       (5)
   Consultants                                  634,216              634,216             -              -
   Subcontracts                              34,845,480           38,390,948             -           79,325     (6)
   Grants                                     1,641,344            8,320,718             -          745,615     (7)
   Travel and transportation                    845,061            1,114,997             -           16,606     (8)
   Equipment                                  3,413,427            5,941,857             -              -
   Allowances                                 2,093,487            1,563,340             -              -
   Other direct costs                        15,585,621            6,730,892             -           58,714     (9)
   Indirect costs                             5,018,629            4,375,069         259,345         33,686    (10)
   Fixed fee                                  3,160,972            3,160,972             -              -

Total costs incurred                        75,133,597            75,133,550         312,450       961,013
Costs in excess of budget by CLIN                  -                     -         1,768,356           -       (11)

Outstanding fund balance (deficit)    $              -        $         (396) $ (2,080,806) $      (961,013)   (12)




                                     See Notes to Fund Accountability Statement

                                                         12
                                    TETRA TECH ARD

                           Financial Audit of Costs Incurred under
                            Contract No. 306-C-00-08-00515-00

                          Notes to Fund Accountability Statement

                    For the Period March 5, 2008 through March 4, 2011


(1)   Status and Operation

      Tetra Tech ARD (ARD) is a wholly owned subsidiary of Tetra Tech Inc., a provider of
      consulting, engineering and technical services worldwide. Tetra Tech Inc. was
      established in 1977 and provides services in the areas of agriculture and economic
      growth, democracy and governance, energy, environment and natural resources, land
      tenure and property rights, water supply and sanitation, architectural/engineering
      services and construction, and global security. ARD has U.S. offices in Burlington,
      Vermont, Washington D.C, and San Francisco, California, and field offices in
      approximately 30 countries.

      On March 5, 2008, the United States Agency for International Development (USAID)
      awarded Contract No. 306-C-00-08-00515-00 to ARD to develop and execute the
      Alternative Development Project South/West (ADP/SW). The original Contract was for a
      2-year period of performance, with a 1-year extension. The total amount of the original
      Contract was $55,133,597. The Contract was amended 13 times, which extended the
      period of performance through March 4, 2011 and increased the total amount of the
      Contract to $75,133,597.

      ARD provided the expense portion of the Fund Accountability Statement (FAS) in
      accordance with the Contract Line Item Numbers (CLINs) per the Contract. When ARD
      submitted its billings, each CLIN was broken down into different cost categories such as
      salaries and wages, fringe benefits, consultants, etc. Budget modifications were
      submitted to USAID whenever needed to realign budget to match actual costs incurred.
      ARD submitted a budget request to USAID to realign the budget to actual costs on
      March 11, 2011. However, this budget request was never approved by the USAID
      Contracting Officer.

      The purpose of the ADP/SW Program was to reduce the economic dependence of
      Farah, Nimroz, Uruzgan, and Helmand provinces on opium production, processing and
      trade by helping communities to identify and seize meaningful opportunities to reduce
      vulnerabilities, improve incomes and create lasting jobs through the licit economy while
      reinforcing the economic and institutional infrastructure on which these opportunities
      depend.

      The goals of the ADP/SW project were to increase agricultural sector jobs and incomes
      and to increase the confidence of Afghans in their government. Along those lines,
      ADP/SW activities were designed to address the following activities:

         1. Increase agricultural productivity;




                                             13
                                      TETRA TECH ARD

                             Financial Audit of Costs Incurred under
                              Contract No. 306-C-00-08-00515-00

                             Notes to Fund Accountability Statement

                                           (Continued)


(1)   Status and Operation (Continued)

            2. Regenerate agribusiness by increasing linkages between farmers, markets, and
               trade corridors; and

            3. Rehabilitate watersheds and improve irrigation infrastructure through labor-
               intensive erosion control and reforestation activities, infrastructure repair and
               training. ADP/SW also works with provincial level Ministry of Agriculture,
               Irrigation and Livestock staff to help build their capacity to deliver services to
               farmers and herders and promote the private sector and farmer associations.


(2)   Summary of Significant Accounting Policies

      (a)      Basis of Accounting

               The Fund Accountability Statement reflects the revenues received and expenses
               incurred under the Contract. It has been prepared on the accrual basis of
               accounting. Under the accrual basis of accounting, revenues are recognized
               when earned and expenses are recognized when incurred.

      (b)      Foreign Currency Conversion Method

               ARD converts its expenses that were paid in local currency (Afghanis) into
               reporting currency (U.S. Dollar) by applying a weighted average of conversion
               rates which eliminates exchange gains and losses. The conversion rates used
               for the weighted average were comprised of the rates the bank used for transfers
               of money from ARD.

      (c)      Questioned Costs

               There are two categories of questioned costs, ineligible and unsupported.
               Ineligible costs are those costs that are deemed to not be allowable in
               accordance with the terms of the Contract and applicable laws and regulations,
               including Federal Acquisition Regulations (FAR) and USAID Acquisition
               Regulations (AIDAR). Unsupported costs are those costs for which no or
               inadequate supporting documentation was provided.




                                               14
                                     TETRA TECH ARD

                           Financial Audit of Costs Incurred under
                            Contract No. 306-C-00-08-00515-00

                          Notes to Fund Accountability Statement

                                         (Continued)


(3)   Revenues

      As of March 4, 2011, ARD has received $75,133,154 in payments from USAID under the
      Contract. This amount is $396 less than what was billed under the Contract.


(4)   Salaries and Wages

      ARD reported salaries and wages in the amount of $3,906,131 for the period of March 5,
      2008 through March 4, 2011. Salaries and wages consisted of the following:

        Home office                                                              $2,721,962
        Cooperating County National/Third Country National (CCN/TCN)              1,184,169

          Total salaries and wages                                               $3,906,131

      Unsupported CCN/TCN local wages consisted of the following. See Finding 2013-2 in
      the Findings and Responses section of this report.

                                                                     Number      Questioned
                                Condition                            of Errors     Cost
           Missing pay slips                                            18       $20,827
           Medical benefit paid did not agree to pay slip                4           712
           Hours per pay slip did not agree to payroll register         23         5,528

             Total questioned costs related to salaries and
              wages                                                     45       $27,067


(5)   Fringe Benefits

      ARD reported fringe benefits in the amount of $994,410 for the period March 5, 2008
      through March 4, 2011. ARD failed to retroactively adjust the indirect costs claimed in
      the previous period to align with the approved provisional rates. The failure to perform
      retroactive adjustments to the final approved rates had resulted fringe benefits to be
      overclaimed by $53,105. See Finding 2013-4 in the Findings and Responses section of
      this report.




                                              15
                                      TETRA TECH ARD

                              Financial Audit of Costs Incurred under
                               Contract No. 306-C-00-08-00515-00

                              Notes to Fund Accountability Statement

                                           (Continued)


(6)   Subcontracts

      ARD reported subcontract expenses in the amount of $38,390,948 for the period March
      5, 2008 through March 4, 2011. Unsupported subcontract costs consisted of the
      following. See Finding 2013-2 in the Findings and Responses section of this report.

                                                                        Number      Questioned
                                Condition                               of Errors     Cost
           No documentation provided                                        1       $ 825
           No authorization for payment and lack of Chief of
            Party (COP) approval                                            1        78,500

               Total questioned costs related to subcontracts               2       $79,325


(7)   Grants

      ARD reported grants expenses in the amount of $8,320,718 for the period March 5,
      2008 through March 4, 2011 as follows:

           Cash-for-work                             $4,979,306
           Grants                                     3,341,412

               Total grants                          $8,320,718

      The cash-for-work (CFW) program is included within the grants expenses. Total
      expenses applicable to the CFW program for the period March 5, 2008 through March 4,
      2011 were $4,979,306. During our testing of this program from inception through
      December, we noted that identical fingerprints were found on the timesheets certified by
      the local Afghan workers for performing the CFW activities. ARD believes this was due
      to the Community Elders in Afghanistan taking responsibility for distributing payments to
      the workers and completing timesheets by affixing their own fingerprints. Total CFW
      expenses for the period March 5, 2008 through December 31, 2008 were $745,615.
      This amount has been questioned. See Finding 2013-3 in the Findings and Responses
      section of this report.




                                                16
                                         TETRA TECH ARD

                               Financial Audit of Costs Incurred under
                                Contract No. 306-C-00-08-00515-00

                               Notes to Fund Accountability Statement

                                             (Continued)


(8)    Travel and Transportation

       ARD reported travel and transportation expenses in the amount of $1,114,997 for the
       period March 5, 2008 through March 4, 2011. Unsupported travel and transportation
       costs consisted of the following. See Finding 2013-2 in the Findings and Responses
       section of this report.

                                                                         Number           Questioned
                                 Condition                               of Errors          Cost
             Missing payment voucher                                         3             $16,112
             Insufficient documentation provided to support cost             2                 494

                Total questioned costs related to travel                     5              $16,606


(9)    Other Direct Costs

       ARD reported other direct costs in the amount of $6,730,892 for the period March 5,
       2008 through March 4, 2011. Unsupported other direct costs consisted of the following.
       See Finding 2013-2 in the Findings and Responses section of this report.

                                                                         Number           Questioned
                                 Condition                               of Errors          Cost
             Missing documentation                                          19             $56,714
             Insufficient documentation provided                             1               2,000

                Total questioned costs related to other direct
                  costs                                                     20              $58,714


(10)   Indirect Costs

       ARD reported indirect costs in the amount of $4,375,069 for the period March 5, 2008
       through March 4, 2011. The negotiated indirect cost rates were as follows:

                                                               Indirect Cost Rates
                      Effective Period     Fringe Benefits                Overhead
                                           Full      Part                             Material
          Type        From     Through   Time (a)  Time (b)   ARD (c)   GFG (d)      Handling (e)   G&A (f)
       Provisional   10/1/07   9/30/08   34.99%     7.72%     32.89%    90.99%         1.08%        12.13%
       Provisional   10/1/08   9/30/09   33.23%     9.42%     39.42%      n/a          1.01%        13.50%
       Provisional   10/1/09   9/30/10   35.45%     8.46%     44.07%      n/a          1.13%        14.22%
       Provisional   10/1/10   Present   36.93%     8.76%     40.85%      n/a          1.50%        13.82%




                                                  17
                                       TETRA TECH ARD

                              Financial Audit of Costs Incurred under
                               Contract No. 306-C-00-08-00515-00

                             Notes to Fund Accountability Statement

                                            (Continued)


(10)   Indirect Costs (Continued)

       The basis of allocation for the indirect costs is as follows:

          (a)    Total full time direct and indirect labor dollars
          (b)    Total part time direct and indirect dollars
          (c)    ARD Division direct labor dollars, including CCN/TCN technical labor dollars
          (d)    GFG Division direct labor dollars
          (e)    Direct subcontract, grants, equipment, pass-through commodities and supplies
          (f)    Total costs, excluding general and administrative (G&A), subcontracts, grants,
                 equipment, pass-through commodities and supplies

       Since costs were questioned in other cost categories, an adjustment for associated
       indirect costs is required. We used the negotiated provisional indirect cost rates in
       calculating the allowable indirect costs. The appropriate rate for each year was applied
       to the individual costs questioned. As described in the previous paragraph, each type of
       indirect costs, i.e., overhead, material handling, G&A, etc. has a different basis of
       allocation. As a result, each type of indirect cost might not be applicable to all cost
       categories. A summary of associated questioned indirect costs by cost category is as
       follows. See Finding 2013-2 and 2013-3 in the Findings and Responses section of this
       report.

                                                                                          Total
                                                                                       Associated
                                   Questioned                   Material              Questioned
            Cost Category             Cost    Overhead          Handling   G&A       Indirect Costs
       Salaries and wages           $ 27,067   $9,882           $ -      $ 4,737          $14,619
       Subcontracts                   79,325      -              1,187       -              1,187
       Grants                        745,615      -              7,531       -              7,531
       Travel and
       transportation                  16,606           -          -         2,295         2,295
       Other direct costs              58,714           -   .      -   .     8,054         8,054

         Total                      $927,327          $9,882    $8,718     $15,086       $33,686

       In addition, ARD claimed indirect costs based upon a predetermined amount from the
       original Contract. When a provisional rate was approved by USAID, ARD applied the
       new rates on go forward basis only and did not retroactively adjust the indirect costs
       claimed in the previous period to align with the approved provisional rates. This resulted
       in overclaimed material handling indirect costs in the amount of $53,105. See Finding
       2013-4 in the Findings and Responses section of this report.




                                                 18
                                     TETRA TECH ARD

                            Financial Audit of Costs Incurred under
                             Contract No. 306-C-00-08-00515-00

                            Notes to Fund Accountability Statement

                                           (Continued)


(10)   Indirect Costs (Continued)

       Total questioned indirect costs were as follows.

                                                                          Questioned
                                   Condition                                Cost
           Total associated questioned indirect costs                     $ 33,686
           Total ineligible material handling indirect costs               259,345

             Total questioned indirect costs                              $293,031


(11)   Costs in Excess of Contract Line Item Numbers

       ARD provided the expense portion of the FAS in accordance with the CLINs per the
       Contract as follows. When ARD submit its billings, each CLIN was broken down into
       different cost categories such as salaries and wages, fringe benefits, consultants, etc.
       Budget modifications were submitted to USAID whenever needed to realign the budget
       to match actual costs incurred. ARD submitted a budget request to USAID to realign the
       budget to actual costs on March 11, 2011. However, this budget request was never
       approved by the USAID Contracting Officer. In addition, there was a lack of a crosswalk
       between the general ledger to the individual CLINs reported. As such, the FAS was
       presented by cost categories based on the latest budget realignment submitted that was
       not approved by USAID.

                                                                                        Variance –
                                                                                       Under (Over)
                              CLIN                          Budget        Actual         Budget
        CLIN 1 – High Value Agricultural Development      $29,116,473   $29,311,844     $(195,371)
        CLIN 2 – Economic Growth Opportunities             18,353,867    16,585,465      1,768,402
        CLIN 3 – Infrastructure Improvement                11,008,513    11,749,642      (741,129)
        CLIN 4 – Cash-for-Work                             16,654,744    17,486,600      (831,856)

         Totals                                           $75,133,597   $75,133,551     $       46

       The actual costs incurred for CLINs 1, 3 and 4 exceeded the budget by $1,768,356.
       According to the Contract, costs are limited to the budget amount per CLIN. The excess
       costs per CLIN are deemed ineligible. See Finding Number 2013-1 in the Findings and
       Responses section of this report.




                                               19
                                   TETRA TECH ARD

                           Financial Audit of Costs Incurred under
                            Contract No. 306-C-00-08-00515-00

                          Notes to Fund Accountability Statement

                                        (Continued)


(12)   Reconciliations

       As of March 4, 2011, ARD reported a fund deficit of $396. ARD received no advances
       during the period March 5, 2008 through March 4, 2011. The outstanding fund deficit
       occurred due to an unreconciled difference between total reimbursements received from
       USAID and the total billed by ARD under the Contract.




                                             20
Board of Directors
Tetra Tech ARD
159 Bank Street, Suite 300
Burlington, Vermont 05402



               INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL


We have audited the Fund Accountability Statement of Tetra Tech ARD (ARD) for the period
March 5, 2008 through March 4, 2011, and have issued our report thereon dated June 21, 2013.
We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States.

Management of ARD is responsible for establishing and maintaining effective internal control
over financial reporting. In planning and performing our audit, we considered ARD’s internal
control over financial reporting as a basis for designing our auditing procedures for the purpose
of expressing our opinion on the Fund Accountability Statement, but not for the purpose of
expressing an opinion on the effectiveness of ARD’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of ARD’s internal control over
financial reporting.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and was not designed to identify all deficiencies
in internal control over financial reporting that might be deficiencies, significant deficiencies or
material weaknesses. We did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined previously. However, we
identified certain deficiencies in internal control over financial reporting, described in the
accompanying Findings and Responses as findings 2013-1, 2013-2, 2013-3, and 2013-4, that
we consider to be significant deficiencies in internal control over financial reporting. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance.



                                                 21
Board of Directors
Tetra Tech ARD
159 Bank Street, Suite 300
Burlington, Vermont 05402

ARD’s responses to the findings identified in our audit are described in the accompanying
Findings and Responses. We did not audit ARD’s responses and, accordingly, we express no
opinion on it.

This report is intended for the information of Tetra Tech ARD, United States Agency for
International Development, and the Special Inspector General for Afghanistan Reconstruction.
Financial information in this report may be privileged. The restrictions of 18 USC 1905 should
be considered before any information is released to the public.




Irvine, California
June 21, 2013




                                             22
Board of Directors
Tetra Tech ARD
159 Bank Street, Suite 300
Burlington, Vermont 05402



                     INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE


We have audited the Fund Accountability Statement of Tetra Tech (ARD) for the period March
5, 2008 through March 4, 2011, and have issued our report thereon dated June 21, 2013. We
conducted our audit in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States.

As part of obtaining reasonable assurance about whether ARD’s Fund Accountability Statement
is free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of Fund Accountability Statement amounts.
However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion. The results of our tests disclosed
instances of noncompliance or other matters that are required to be reported under Government
Auditing Standards and which are described in the accompanying Findings and Responses as
Findings 2013-1, 2013-2, and 2013-3.

ARD’s responses to the findings identified in our audit are described in the accompanying
Findings and Responses. We did not audit ARD’s responses and, accordingly, we express no
opinion on it.

This report is intended for the information of Tetra Tech ARD, United States Agency for
International Development, and the Special Inspector General for Afghanistan Reconstruction.
Financial information in this report may be privileged. The restrictions of 18 USC 1905 should
be considered before any information is released to the public.




Irvine, California
June 21, 2013



                                               23
                                      TETRA TECH ARD

                             Financial Audit of Costs Incurred under
                              Contract No. 306-C-00-08-00515-00

                                     Findings and Responses

                      For the Period March 5, 2008 through March 4, 2011


2013-1: Costs Incurred Exceed Individual CLINs

Condition:
ARD provided the expense portion of the Fund Accountability Statement in accordance with the
Contract Line Item Numbers (CLINs) per Contract No. 306-C-00-08-00515-00 (Contract) as
follows. When ARD submit its billings, each CLIN was broken down to different cost categories
such as salaries and wages, fringe benefits, consultants, etc. Budget modifications were
submitted to USAID whenever needed to realign budget to match actual costs incurred. ARD
submitted a budget request to USAID to realign the budget to actual costs on March 11, 2011.
However, this budget request was never approved by the USAID Contracting Officer. In
addition, there was a lack of a crosswalk between the expenditure general ledgers provided to
the individual CLINs reported. As such, the FAS was presented by cost categories based on
the latest budget realignment submitted that was not approved by USAID.

                                                                               Variance –
                                                                              Under (Over)
                        CLIN                        Budget        Actual        Budget
  CLIN 1 – High Value Agricultural Development    $29,116,473   $29,311,844    $(195,371)
  CLIN 2 – Economic Growth Opportunities           18,353,867    16,585,465     1,768,402
  CLIN 3 – Infrastructure Improvement              11,008,513    11,749,642     (741,129)
  CLIN 4 – Cash-for-Work                           16,654,744    17,486,600     (831,856)

   Totals                                         $75,133,597   $75,133,551    $       46

The actual costs incurred for CLINs 1, 3 and 4 exceeded the budget by $1,768,356. The total
cost of the Contact for all CLINs combined was $46 under budget.

Additionally, ARD was not able to provide a crosswalk from the Excel file that included its costs
to the individual CLINs in the contract. Without such crosswalk, it cannot be determined which
individual costs were aggregated to each CLIN. The total of the individual costs and the total of
all CLINs were in agreement.


Cause:
ARD submitted a budget request to USAID to realign the budget for individual cost categories
that comprise a CLIN to its actual costs for the cost categories on March 11, 2011. ARD
submitted this budget realignment request as its actual costs on a CLIN basis exceeded the
budget. However, this budget request was never approved by the USAID Contracting Officer.
Additionally, due to the acquisition of ARD by Tetra Tech, Inc., the old accounting system was
not compatible with the new accounting system. With the change to the new accounting system,
historical information was lost and ARD was not able to prepare a crosswalk from the
accounting records to each CLIN.




                                                 24
                                      TETRA TECH ARD

                             Financial Audit of Costs Incurred under
                              Contract No. 306-C-00-08-00515-00

                                    Findings and Responses

                                           (Continued)


2013-1: Costs Incurred Exceed Individual CLINs (Continued)

Criteria:
Contract No. 306-C-00-08-00515-00, Section B, Supplies or Services and Prices/Costs,
Paragraph B.4, Price Schedule, states, in part:

         “…The ceiling costs and the fixed fee specified for each CLIN cannot be
         exceeded without a formal, written contract modification signed by the
         Contracting Officer…”


Effect:
Failure to obtain approval for a budget adjustment prior to incurring costs in excess of the
budget for individual CLINs resulted in USAID’s imposed controls being compromised, and thus
ineligible costs of $1,768,356.


Recommendation:
   (1) We recommend that ARD return $1,768,356 to USAID for costs incurred in excess of
       budget amounts for individual CLINs.

   (2)    We recommend that ARD maintain a full and complete general ledger system to
          ensure that all project costs are properly recorded and reported. If ARD’s books are
          kept on a basis that is different from how costs are accumulated per the Contract, then
          we recommend that ARD prepare a crosswalk documenting how costs are grouped
          into the specific cost categories or CLINs per the Contract.


Management Response:
ARD disagrees with the audit finding recommendation that $1,768,356 should be returned to
USAID for costs incurred in excess of budget amounts for individual CLINs. They indicated that
the totals were overrun for CLINs 1, 3, and 4, but the total cost to the contract for all CLINs was
under budget. ARD states that the imbalances occurred due to its efforts to meet project
objectives in a changing environment and USAID was aware of the imbalances. ARD stated
that it conveyed to USAID on multiple occasions during the final six months of the project as to
the budget status. It submitted a request to realign the budgeted CLIN totals to USAID, and
acknowledges that USAID never acted upon the request. ARD’s verbatim management
response is included in Appendix B to this report.




                                                25
                                    TETRA TECH ARD

                           Financial Audit of Costs Incurred under
                            Contract No. 306-C-00-08-00515-00

                                  Findings and Responses

                                         (Continued)


2013-1: Costs Incurred Exceed Individual CLINs (Continued)

Rebuttal to Management Response:
ARD submitted a budget request to USAID to realign the budget to actual costs on March 11,
2011. However, this budget request was never approved by the USAID Contracting Officer.
Additionally, there was a lack of a crosswalk between the expenditure general ledgers provided
in Excel format to the individual CLINs reported. As such, the FAS was presented by cost
categories based on the latest budget realignment submitted that was not approved by USAID.
Our recommendation remains unchanged.




                                             26
                                           TETRA TECH ARD

                               Financial Audit of Costs Incurred under
                                Contract No. 306-C-00-08-00515-00

                                       Findings and Responses

                                               (Continued)


2013-2: Missing or Insufficient Source Documentation to Support Expense

Condition:
ARD could not provided records, or provided insufficient records in the following four cost
categories:

                                                                     Number      Questioned
                             Observation                             of Errors     Cost
Salaries and wages:
 Missing pay slips for payments of salaries and wages                       18       $20,827
 Medical benefit paid exceeded pay slip                                      4           712
 Hours per pay slip did not agree to payroll register                       23         5,528

   Total questioned costs related to salaries and wages                     45         27,067

Subcontracts:
 All requested supporting documentation, such as invoices, payment
  vouchers, purchase orders, subcontractor’s agreement, etc. was
  not provided                                                               1           825
 No authorization for payment and lack of Chief of Party (COP)
  approval                                                                   1         78,500

   Total questioned costs related to subcontracts                            2         79,325

Travel and transportation:
  Missing payment voucher                                                    3        16,112
  Insufficient documentation provided to support cost                        2           494

   Total questioned costs related to travel and transportation               5         16,606

Other direct costs:
 Missing documentation                                                      19        56,714
 Insufficient documentation provided                                         1         2,000

   Total questioned costs related to other direct costs                     20         58,714

Total questioned costs due to missing or insufficient supporting
 documentation                                                              72      $181,712




                                                    27
                                     TETRA TECH ARD

                            Financial Audit of Costs Incurred under
                             Contract No. 306-C-00-08-00515-00

                                    Findings and Responses

                                          (Continued)


2013-2: Missing or Insufficient Source Documentation to Support Expense (Continued)

There are associated indirect costs consisting of overhead, material handling and general and
administrative (G&A) expenses that are applicable to the questioned costs as follows. The
overhead, material handling and G&A costs are based upon the negotiated indirect cost rates
as detailed in Note 10 of the Notes to Fund Accountability Statement.

                                                                                        Total
                                                                                     Associated
                                Questioned                Material                  Questioned
         Cost Category             Cost       Overhead    Handling   G&A           Indirect Costs
   Salaries and wages            $ 27,067      $9,882     $ -      $ 4,737           $14,619
   Subcontracts                    79,325         -        1,187       -                1,187
   Travel and transportation       16,606         -          -       2,295              2,295
   Other direct costs              58,714         - .        - .     8,054              8,054

     Total                       $181,712       $9,882        $1,187   $15,086      $26,155


Cause:
ARD was unable to locate the relevant documentation or could not provide sufficient
documentation due to its poor filing system and maintenance of records. Many of its records
had been transferred to offsite storage.


Criteria:
48 CFR 31.201-2, Determining Allowability, states, in part:

       “(d) A contractor is responsible for accounting for costs appropriately and for
       maintaining records, including supporting documentation, adequate to
       demonstrate that costs claimed have been incurred, are allocable to the contract,
       and comply with applicable cost principles in this subpart and agency
       supplements…”

Additionally, 48 CFR 52.215-2, Audit and Records – Negotiation, states, in part:

       “…(b) Examination of costs. If this is a cost-reimbursement, incentive, time-and-
       materials, labor-hour, or price redeterminable contract, or any combination of
       these, the Contractor shall maintain…all records and other evidence sufficient to
       reflect properly all costs claimed to have been incurred or anticipated to be
       incurred directly or indirectly in performance of this contract…”




                                               28
                                     TETRA TECH ARD

                             Financial Audit of Costs Incurred under
                              Contract No. 306-C-00-08-00515-00

                                    Findings and Responses

                                          (Continued)


2013-2: Missing or Insufficient Source Documentation to Support Expense (Continued)

Effect:
Failure to retain supporting documentation for costs incurred could result in the questioning of
otherwise allowable costs. Total questioned costs are $207,867, consisting of missing or
insufficient source documentation in the amount of $181,712, plus the applicable overhead,
material and handling fee, and G&A expenses of $26,155.

Recommendation:
   (1) We recommend that ARD either provide USAID the missing or insufficient
       documentation for further review or return $207,867 to USAID for unsupported
       program costs.

   (2)   We recommend that ARD improve its record retention policies to ensure that all
         documentation supporting costs incurred is properly maintained.


Management Response:
ARD disagrees with the total questioned direct costs of $181,712, plus $26,155 in associated
indirect costs. They state that 99.9% of the audited costs were located and properly supported
with adequate supporting documentation. ARD indicates that approximately 89% of the
questioned costs occurred during the final two months of outlying office operations, and
documentation was misplaced or otherwise not provided. The project financial documentation
and filing systems were adequate for the life of the project, but did experience interruptions for
some local costs during the close-out period and shipping the files back to the Kabul office and
ultimately back to Burlington, Vermont. ARD does agree that some documentation was lost or
misplaced in the field. However, rather than $181,712 in questioned direct costs, the figure
should be reduced to $91,550 to reflect the payroll items that were cleared by the auditors and
the $78,500 ARDA subcontract payment which is adequately supported. ARD’s verbatim
management response is included in Appendix B to this report.


Rebuttal to Management Response:
As outlined in the condition, there were numerous instances of missing or insufficient source
documentation to support expenses that were sampled and tested. ARD has acknowledged
that some documentation was lost or misplaced in the field. With respect to testing of salaries
and wages, we cleared all exceptions where adequate support was provided. With respect to
testing of subcontracts, the support for the $78,500 payment to ARDA was not provided for our
review by the date of the exit conference, which was the last date to receive documentation, and
as such, has not been evaluated. Our recommendation remains unchanged.




                                               29
                                      TETRA TECH ARD

                             Financial Audit of Costs Incurred under
                              Contract No. 306-C-00-08-00515-00

                                    Findings and Responses

                                           (Continued)


2013-3: Lack of Adequate Proof of Payment in Cash-for-Work Program

Condition:
During our review of the Cash-for-Work (CWF) Program, which began in October 2008, ARD
obtained fingerprints and/or signatures from the workers as proof of support that the individual
receiving the payment actually performed the work for which they were paid. However, for the
period of October 1, 2008 through December 31, 2008, fingerprints and/or signatures for most
of the workers appeared to be identical. Total CFW payments during this period were $745,615.
Applicable indirect costs were $7,531, which resulted in total questioned costs of $753,146.


Cause:
ARD stated that for initial CFW Programs, payments were made directly through Shura
(community) elders who had the responsibility to gather workers and pay them. ARD also
indicated that the Shura members took it upon themselves to fill out the timesheets when
requested prior to payment as they were distributing the payments to the workers themselves.
The practice of having a Shura member handle the payments and affix his own fingerprints to
the timesheets was discontinued in January 1, 2009, and instead a staff member went to each
project site to document and account for each local worker. This procedure change required
that an individual worker be available to affix his own fingerprint when the timesheets were filled
out.


Criteria:
48 CFR 31.201-2, Determining Allowability, states, in part:

       “(d) A contractor is responsible for accounting for costs appropriately and for
       maintaining records, including supporting documentation, adequate to
       demonstrate that costs claimed have been incurred, are allocable to the contract,
       and comply with applicable cost principles in this subpart and agency
       supplements…”

Additionally, 48 CFR 52.215-2, Audit and Records – Negotiation, states, in part:

       “…(b) Examination of costs. If this is a cost-reimbursement, incentive, time-and-
       materials, labor-hour, or price redeterminable contract, or any combination of
       these, the Contractor shall maintain…all records and other evidence sufficient to
       reflect properly all costs claimed to have been incurred or anticipated to be
       incurred directly or indirectly in performance of this contract…”




                                                30
                                      TETRA TECH ARD

                             Financial Audit of Costs Incurred under
                              Contract No. 306-C-00-08-00515-00

                                    Findings and Responses

                                           (Continued)


2013-3: Lack of Adequate Proof of Payment in Cash-for-Work Program (Continued)

Effect:
Not having each individual worker verify that payment was received for work performed through
the imprint of a fingerprint increases the risk that payments under the CWF Program were not
made for their intended purpose. Total questioned costs were $753,146, which includes $7,531
of associated indirect costs.


Recommendation:
We recommend that ARD return $753,146 to USAID for insufficiently supported CFW payments.


Management Response:
ARD disagrees with finding. It indicates that the procedure to verify CFW payments at the
beginning of the project was an accepted practice. Its procedure was refined in October 2008 in
an effort to strengthen implementation and indicates that the change did not imply that the
original practice was either inherently suspect or faulty. For the initial CFW programs, ARD
stated that payments were made directly through Shura (community) elders whose
responsibility was to gather workers and pay them. It was also practice that an ADP staff
member was present when payments were made. It was a common practice for elders to fill out
project timesheets based on the number of laborers who worked on each project. ARD
acknowledges that it is possible that Shura members took it upon themselves to fill out
timesheets as they were distributing the payments directly to the workers themselves. ARD
believes the $753,146 in payments were sufficiently supported with timely records, especially
when the elders’ and ARD staff members’ presence is taken into consideration. ARD’s verbatim
management response is included in Appendix B to this report.


Rebuttal to Management Response:
ARD states that the $753,146 was sufficiently supported with timely records and especially
when the tribal elders’ and ARD staff members’ presence is taken into consideration for the
disbursements of cash payments to local workers. However, ARD acknowledges that the
practice of having the tribal elder handle the payments and affix his own fingerprints was
discontinued in October 2008 and going forward an ADP staff member visited each project site
to document and account for each local worker being paid. Additionally, our review of the local
workers’ timecards for the period October 2008 through December 2008 found numerous
instances of identical fingerprints. Beginning in January 2009, the appearance of identical
fingerprints on timesheets appeared to cease. Once ARD implemented its new procedure, it
was a requirement that the individual local worker had to be available to affix his own fingerprint
when timesheets were filled out. Our recommendation remains unchanged.




                                                31
                                           TETRA TECH ARD

                               Financial Audit of Costs Incurred under
                                Contract No. 306-C-00-08-00515-00

                                         Findings and Responses

                                               (Continued)


2013-4: Indirect Costs were Overclaimed

Condition:
ARD claimed indirect costs based on a predetermined amount from the original Contract. When
a provisional rate was approved by USAID, ARD applied the new rates on a go forward basis
only. ARD failed to retroactively adjust the indirect costs claimed in the previous periods to align
with the new approved provisional rates. Indirect costs were overclaimed as follows:

                                                              Amount        Audited     Overclaimed
         Indirect Cost              Cost Category per FAS     claimed       Amount        amount
Fringe benefit – full time             Fringe benefits       $ 994,410     $ 941,305     $ 53,105
Material Handling                       Indirect Costs         789,803       530,458      259,345

  Total questioned indirect costs                            $1,784,213    $1,471,763    $312,450


Cause:
ARD only performs retroactive adjustments based upon final rates, and not modified provisional
rates.


Criteria:
Contract No.. 306-C-00-08-00515-00, Section B, states in part:

        “…B.5 Indirect Costs
        Pending establishment of revised provisional or final indirect cost rates, allowable
        indirect costs shall be reimbursed on the basis of the following provisional or
        predetermined rates…

        …B.6 Indirect Costs
        Reimbursement for indirect costs shall be at the lower of the negotiated, final, or
        predetermined rate or the following ceiling rates:”


Effect:
Failure to perform retroactive adjustments to approved provisional rates resulted in $312,450 of
indirect costs being overclaimed.




                                                    32
                                       TETRA TECH ARD

                             Financial Audit of Costs Incurred under
                              Contract No. 306-C-00-08-00515-00

                                     Findings and Responses

                                            (Continued)


2013-4: Indirect Costs were Overclaimed (Continued)

Recommendation:
   (1) We recommend that ARD return $312,450 to USAID for overclaimed indirect costs.

   (2)   We recommend that ARD develop and implement adequate procedures to perform
         retroactive adjustments to indirect costs claimed when new provisional rates are
         approved by USAID.


Management Response:
ARD disagrees with this finding and indicates that it did not overclaim indirect costs as noted in
the auditor’s report. ARD states that it routinely adjusts its indirect cost rates whenever the rates
have been updated on the negotiated indirect cost rate agreement. ARD contends that while its
actual indirect rates for fringe benefits and material handling ran under the billed rates, the
actual indirect rates for overhead and general and administration ran over the billed rates and
should also be taken into consideration. ARD’s verbatim management response is included in
Appendix B to this report.


Rebuttal to Management Response:
Although the aggregated indirect cost was not exceeded, our testing of each indirect cost rate is
performed individually, not in the aggregate. As such, the two indirect cost rates that were
overclaimed are questioned. Our recommendation remains unchanged.




                                                 33
                                                                                APPENDIX A

                                     TETRA TECH ARD

                            Financial Audit of Costs Incurred under
                             Contract No. 306-C-00-08-00515-00

                     For the Period March 5, 2008 through March 4, 2011


Review of Prior Findings and Recommendations

The following prior audit recommendations were reviewed as part of the scope of this audit. We
have included the current status of each recommendation.


USAID Review

USAID/Afghanistan staff from the Office of Financial Management and the Office of Acquisition
and Assistance conducted a review of ADP/SW’s financial, procurement and other systems in
April 2009. The following findings and our review of the adequacy of the corrective action taken
by ARD are noted below.

Financial Review

   A. Cashiering Operations/Funds Management

           1. Condition: ARD paid 2.5% commission for funds transfer and distribution
              services to the Farah Office through a local money dealer. The transfers should
              be made though Azizi Bank, which is available in Farah province. The
              distribution of Cash-for-Work project could be negotiated at lower rates with a
              local money dealer.

              Current Status: ARD has documentation on file which shows this currency
              dealer is the lowest on the market. We reviewed the supporting documents and
              determined them to be adequate. Adequate corrective action has been
              implemented by ARD and this finding has been resolved.

           2. Condition: ARD’s Finance Manager was responsible for maintaining cash and
              processing the vouchers at the same time.

              Current Status: Effective April 24, 2009, ARD has separated the cash duties
              from the voucher preparation. An additional Finance employee was hired and
              began employment on May 5, 2009. We tested the controls for cash duties and
              determined that adequate segregation of duties existed. Adequate corrective
              action has been implemented by ARD and this finding has been resolved.

           3. Condition: ARD maintained cash in two safes, one with the Finance Manager as
              cashier, and one with the Accountant sub-cashier. During the cash count,
              excess cash in the amount of $300 was found in the second safe. The first safe
              had two keys and two individuals could access the safe at the same time.




                                              34
                                                                               APPENDIX A

                                  TETRA TECH ARD

                         Financial Audit of Costs Incurred under
                          Contract No. 306-C-00-08-00515-00

                                       (Continued)


Review of Prior Findings and Recommendations

           Current Status: Effective April 24, 2009, the daily petty cash box was locked in
           the large safe at night and brought out at the beginning of the day by the same
           cashier. This allowed all cash to be in one location. Monthly, the ADP
           accountant collects food costs ($4/day/person) from expats. On the day of the
           cash count, an amount of $300 was collected from the expats. Documentation
           was on file which has the auditor’s signature confirming the cash was in balance.
           We reviewed supporting documentation and found it to be adequate. Adequate
           corrective action has been implemented by ARD and this finding has been
           resolved.

        4. Condition: A surprise cash count conducted by the financial review team found
           that copies of paid invoices were not available at the time of the cash count in the
           amount of $12,487, plus Afghanis (Afs) 691,423 equivalent to $13,746.

           Current Status: At the time the auditors performed the cash count, the paid
           invoices/vouchers were awaiting the Deputy Chief of Party – Admin/Finance
           review and signature. ARD provided documentation showing the cash balanced,
           taking into account the vouchers with the auditor’s signature. We reviewed
           supporting documentation and found it to be adequate. Adequate corrective
           action has been implemented by ARD and this finding has been resolved.

        5. Condition: No evidence was made available to prove that ARD was performing
           surprise cash counts.

           Current Status: As of April 24, 2009, ARD began conducting and documenting
           random cash count in Kabul and Farah. We reviewed supporting documentation
           relative to cash counts subsequent to April 24, 2009 and found it to be adequate.
           Adequate corrective action has been implemented by ARD and this finding has
           been resolved.

        6. Condition: According to ARD, the cashier normally holds cash up to $30,000 in
           the safe. However, it was noted that at one time cash was transferred to the safe
           in the amount of $16,559 during the month of April 2009, and AFA 2.7 million,
           equivalent to $52,513.

           Current Status: Expenses on Cash-for-Work projects in Farah are transferred
           through a contracted currency dealer for direct payment to the project location for
           labor and supplies. Cash was paid to the currency dealer for the specific activity
           and not kept in the safe for extended periods of time. The month of April 2009
           Proof of Funds Worksheet reflects the entire month of cash moving through the
           safe, not at one time. We examined the supporting documentation, which



                                            35
                                                                              APPENDIX A

                                 TETRA TECH ARD

                         Financial Audit of Costs Incurred under
                          Contract No. 306-C-00-08-00515-00

                                      (Continued)


Review of Prior Findings and Recommendations

           provides the detail of when cash was in and out of the safe and found it to be
           adequate for the entire month of April 2009. Adequate corrective action has
           been implemented by ARD and this finding has been resolved.

        7. Condition: A large number of transactions were paid in cash, including staff
           salaries, which could be done through a bank.

           Current Status: Per our interview with ARD personnel, Farah local employees
           are unwilling to make the trip to the bank due to security in a high risk
           environment. The Kabul local staff (with the exception of support staff) began
           having salary transferred directly to their bank accounts beginning July 1, 2009.
           We confirmed that effective July 1, 2009, the Kabul local staff began to have their
           salary transferred directly to their bank accounts. Adequate corrective action has
           been implemented by ARD and this finding has been resolved.

        8. Condition: The majority of supporting documents are not stamped “Paid”.

           Current Status: Beginning April 24, 2009, ARD implemented a procedure to
           stamp “paid” on supporting documents reflecting the exact date of payment. We
           examined supporting documentation evidencing the use of a paid stamp.
           Adequate corrective action has been implemented by ARD and this finding has
           been resolved.


  B. Payments

        1. Condition:  There was inconsistency in the supporting documentation of
           vouchers. Some vouchers had the original supporting documents while others
           had copies.

           Current Status: The original vouchers are now maintained in the files. We
           reviewed supporting documentation and confirmed that original vouchers are
           being retained. Adequate corrective action has been implemented by ARD and
           this finding has been resolved.

        2. Condition: Accommodation charges were paid to a local hotel in the amount of
           AFA 63,750 equivalent to $1,238 without a travel authorization and supporting
           documents for home/field office staff.

           Current Status: Travel authorizations were not filed correctly but existed. The
           documents were located and are now filed in the appropriate financial file. The



                                           36
                                                                               APPENDIX A

                                  TETRA TECH ARD

                          Financial Audit of Costs Incurred under
                           Contract No. 306-C-00-08-00515-00

                                       (Continued)


Review of Prior Findings and Recommendations

            trips in question were delayed due to weather and emails are on file to reflect the
            appropriate approvals. We inspected supporting documentation for travel
            authorization and found them to be complete and properly filed. Adequate
            corrective action has been implemented by ARD and this finding has been
            resolved.

        3. Condition: Improper documents for procurement of fuel for AFA 270,000
           equivalent to $5,367. There was no purchase order (PO). Only an approval
           through email was provided. The approved rate was AFA 48 and the
           procurement as made at AFA 45.

            Current Status: ARD had an open contract for fuel but it was not attached to the
            payment voucher. The vendor had quoted an estimate of AFA 48. After
            negotiation, it was agreed to a more favorable price of AFA 45. We examined
            supporting documentation for procurement and found it to be adequate.
            Adequate corrective action has been implemented by ARD and this finding has
            been resolved.


  C. Inventory

        1. Condition: 20 inventory items were physically tested. One of the software items
           in the IT Department was not available.

            Current Status: The software was in the IT Office but not on the shelf at the time
            of the audit since it was in use by an IT specialist. We confirmed that the
            software was temporarily in use by ARD personnel at the time of the previous
            audit. Adequate corrective action has been implemented by ARD and this finding
            has been resolved.


  D. Allowances and Benefits

        1. Condition: Medical expenses of CCN employees were paid to immediate family
           members, including the father, mother, brother and sister and other dependents
           in the amount of $421.

            Current Status: ARD lacked a specific definition for "immediate family". A
            definition has been published and amended to the employee manual. We
            examined the employee manual and found the amendment to be adequate.




                                            37
                                                                              APPENDIX A

                                  TETRA TECH ARD

                         Financial Audit of Costs Incurred under
                          Contract No. 306-C-00-08-00515-00

                                       (Continued)


Review of Prior Findings and Recommendations

            Adequate corrective action has been implemented by ARD and this finding has
            been resolved.

        2. Condition: There were instances where medical expenses were paid in excess
           of the threshold amount of $1,000 to individuals.

            Current Status: ARD identified that one employee had exceeded their health
            benefit allowance. ARD has credited the appropriate account. A monthly review
            was conducted by the Deputy Chief of Party/Admin-Finance to ensure no
            overages are issued in the future. We examined evidence of the review.
            Adequate corrective action has been implemented by ARD and this finding has
            been resolved.

        3. Condition: A few unreasonable medical claims were reviewed in the amount of
           AFA 32,000, equivalent to $636. It was also noted that there was no amount
           mentioned on the medical invoice.

            Current Status: ARD agreed that the documentation was inadequate and the
            charge has been credited to the project. We examined the supporting
            documentation and noted that ARD has properly credited the project for the
            questioned charges. Adequate corrective action has been implemented by ARD
            and this finding has been resolved.


  E. Accounting and Financial Reporting

        1. Condition: ARD’s accounting system was maintained in an Excel file which was
           not password protected.

            Current Status: The computers are password protected. ARD has instituted
            passwords on the Excel spreadsheets themselves. ARD has purchased
            Quickbooks accounting software and has converted the local accounting system
            to Quickbooks. We observed that the computers are password protected and
            that the subject Excel file also is password protected. Adequate corrective action
            has been implemented by ARD and this finding has been resolved.

        2. Condition: There were no systems in place to account for exchange gains and
           losses. Different rates are used for financial reporting.

            Current Status: ARD uses a weighted average exchange rate which eliminates
            exchange gains and losses. We reviewed ARD’s methodology for applying a



                                            38
                                                                            APPENDIX A

                                 TETRA TECH ARD

                         Financial Audit of Costs Incurred under
                          Contract No. 306-C-00-08-00515-00

                                      (Continued)


Review of Prior Findings and Recommendations

           weighted average exchange rate and found it to be adequate. Adequate
           corrective action has been implemented by ARD and this finding has been
           resolved.

        3. Condition: Cost allocation was charged to the CLINs based upon the percentage
           of the total amount in the budget. However, this percentage differed from the
           detailed budget initially submitted to USAID.

           Current Status: ARD allocated costs not charged to a specific CLIN by using the
           total cost of the budgeted CLIN amount vs. the total contract cost. ARD changed
           its allocation methodology beginning with the April 2009 voucher and now bases
           it on the detailed budget contained in modification number 2. We reviewed
           ARD’s allocation methodology and examined modification number 2 to the
           Contract and noted that effective with the April 2009 invoice, the allocation is
           properly aligned with the detailed budget. Adequate corrective action has been
           implemented by ARD and this finding has been resolved.

        4. Condition: The Finance Manager and Accountants were not aware of the budget.

           Current Status: ARD prepared a local budget when the contract was initially
           awarded. ARD has since prepared a new local budget based upon modification
           number 2 to the contract and has distributed it to the local accounting staff.
           MHM inquired of accounting personnel as to their awareness of the budget.
           Adequate corrective action has been implemented by ARD and this finding has
           been resolved.


  F. Procurement

        1. Condition: The quotations for the Kabul fuel procurement were obtained after the
           PO was signed. USAID questioned all the costs paid under the PO in the
           amount of AFA 284,981, equivalent to $5,534.

           Current Status: ARD disputed the results indicating that the PO was signed on
           October 5, 2008, and the quote dates were September 2, 2008, September 3,
           2008 and September 4, 2008. We inspected the supporting documentation and
           found it to be adequate. Adequate corrective action has been implemented by
           ARD and this finding has been resolved.




                                           39
                                                                              APPENDIX A

                                   TETRA TECH ARD

                           Financial Audit of Costs Incurred under
                            Contract No. 306-C-00-08-00515-00

                                        (Continued)


Review of Prior Findings and Recommendations

        2. Condition: The Farah fuel contract had missing information. No quotations were
           available.

              Current Status: ARD has implemented a new procedure whereby copies of
              original purchase orders are filed in Procurement, and copies also are attached
              to the invoice. We inspected documentation related to the original purchase
              order documentation and found it to be adequate. Adequate corrective action
              has been implemented by ARD and this finding has been resolved.


        3. Condition: Procurement of some computers did not follow the procurement rules
           to provide specifications of the computers to vendors. Quotations provided were
           for different types of computers. Therefore, the rates differed. USAID
           questioned $7,425.

              Current Status: ARD acknowledged that during project start-up and pressure to
              mobilize quickly, it utilized existing quotations as the basis for purchasing
              computers. We reviewed the quotations obtained and found that while they were
              not exactly the same specifications, the documentation demonstrated that the
              price was reasonable. Adequate corrective action has been implemented by
              ARD and this finding has been resolved.


  G. Leases

        1. Condition: The lease agreement for the Farah office building stated that monthly
           advances were to be paid to the landlord after the first 6 months advance, which
           was paid at the beginning of the lease agreement. It was noted that this clause
           was not followed. The second installment was paid for 5 months and the third
           installment was paid for 3.5 months.

              Current Status: ARD has implemented monthly rental payments. We inspected
              evidence of monthly rental payments. Adequate corrective action has been
              implemented by ARD and this finding has been resolved.

        2. Condition: The lease agreement for the Kabul office expired on April 4, 2009.
           According to article 12 of the lease agreement, a notice of 60 days should have
           been given by either party to terminate the agreement. ARD did give the
           advanced notice of 60 days. However, based upon ARD’s needs, the lease
           agreement was extended for one month until May 4, 2009 with an email approval
           from the Deputy Chief of Party, but payment to the landlord was made through



                                             40
                                                                              APPENDIX A

                                  TETRA TECH ARD

                         Financial Audit of Costs Incurred under
                          Contract No. 306-C-00-08-00515-00

                                       (Continued)


Review of Prior Findings and Recommendations

           May 30, 2009. Since there was no formal modification to extend the agreement
           until May 30, 2009, the payment from April 4, 2009 to May 30, 2009 has no legal
           basis.

           Current Status: The amount was questioned in the following finding. Per review
           of documentation provided for our review, the landlord and ARD agreed with a
           60-day notice. Adequate corrective action has been implemented by ARD and
           this finding has been resolved.

        3. Condition: Based upon the lease agreement, either Mohammad Ali or his
           representative Mohammad Zahir was authorized to receive payments from ARD
           for the lease, but the rent for the Kabul Office building was paid in the amount of
           $45,266 to Mirwais who is not an authorized person to receive the payment.
           Therefore, USAID questioned this amount.

           Current Status: ARD provided an acknowledgment by the landlord, Mr. Zahair,
           who lives in Pakistan, that he has received rental payments in full even though
           the money was paid to his brother, who lives in Kabul. Adequate corrective
           action has been implemented by ARD and this finding has been resolved.

        4. Condition: The rental services tax amount had been withheld from the rent
           amount paid for the Kabul Office building from October 2008 to April 2009, but
           had not been paid to the Government of the Islamic Republic of Afghanistan.

           Current Status: ARD has provided the receipt for the tax payment through April
           2009 as evidence that the tax has been paid. Adequate corrective action has
           been implemented by ARD and this finding has been resolved.


  H. Grants Management

        1. Condition: There was no evidence available to prove that bids were opened in
           the presence of all evaluation committee members. It was also not clear that on
           which date the bids were opened.

           Current Status: As of October 2008, the ARD procedure for bid openings is
           outlined in the Grants Management Manual. It includes logging the incoming
           bids including noting the dates received and identifies the applicant. The set
           committee, as a group, opens and logs the name of the applicant and the bid
           budget and signs the log. We reviewed the log maintained by ARD to verify the




                                            41
                                                                            APPENDIX A

                                 TETRA TECH ARD

                        Financial Audit of Costs Incurred under
                         Contract No. 306-C-00-08-00515-00

                                      (Continued)


Review of Prior Findings and Recommendations

           existence of a review of the bid opening process. Adequate corrective action has
           been implemented by ARD and this finding has been resolved.

        2. Condition: Only three proposals submitted by the Health and Development
           Center for Afghan Women HDCAW had stamps and signatures of the Non-
           Governmental Organization NGOs. There was no letterhead of the NGOs. No
           envelopes were available to evidence that the bids were sent by the NGOs.

           Current Status: ARD has provided the originals on three of the eight grant
           proposals, which brings the original sample to six of the eight. Two are still
           missing. ARD has also provided the original three envelopes associated with
           these proposals as additional evidence. Although there are still two proposals
           missing, testing the current year audit did not reveal the same condition.
           Adequate corrective action has been implemented by ARD and this finding has
           been resolved.

        3. Condition: The scoring sheet for the evaluation of the May 31, 2008 bidding has
           missing scores from some members, which effected the total points scored by
           the bidders, which was also not discussed in the minutes of the evaluation
           committee meeting. For the evaluation of July 21, 2008 bidding, there was no
           scoring sheet available in the files.

           Current Status: ARD has agreed with this finding regarding missing information
           noted in the review of the scoring sheets. We interviewed ARD personnel and
           observed that the scoring sheets are now maintained in the grant files. Adequate
           corrective action has been implemented by ARD and this finding has been
           resolved.

        4. Condition: The minutes of the evaluation committee meeting for July 21, 2008
           bidding were available. However, there was no evidence that the committee
           members agreed with the decision made by the committee.

           Current Status: ARD revised its grant manual to require meeting minutes on all
           awards. Adequate corrective action has been implemented by ARD and this
           finding has been resolved.

        5. Condition: There were no negotiation memos available for any of the grants.

           Current Status: ARD provided all negotiation memos for our review. We
           reviewed for completeness and for relevancy to the subject grants. Adequate




                                          42
                                                                               APPENDIX A

                                    TETRA TECH ARD

                           Financial Audit of Costs Incurred under
                            Contract No. 306-C-00-08-00515-00

                                        (Continued)


Review of Prior Findings and Recommendations

              corrective action has been implemented by ARD and this finding has been
              resolved.

          6. Condition: Grant agreements with the Afghan Development Association (ADA)
             cluster 1 and 4, Health and Development Center for Afghan Women/Southwest
             (HDCAW/SWP) and Coordination of Humanitarian Assistance (CHA) cluster 1
             had no agreement end dates.

              Current Status: Each grantee Request for Application (RFA) outlines the time
              period of the grant. Subsequent to the audit, ARD has reviewed and notated the
              end dates. We inspected the RFAs without exception. Adequate corrective
              action has been implemented by ARD and this finding has been resolved.

          7. Condition: No documents were provided to evidence the approval of poultry
             projects from the Contracting Officers Technical Representative (COTR).

              Current Status: On April 16, 2008, the COTR provided technical concurrence via
              email. ARD provided the email correspondence for our review as evidence of the
              approval from the COTR. Adequate corrective action has been implemented by
              ARD and this finding has been resolved.

          8. Condition: No approval of Statement of Work (SOW) is available from the COTR.

              Current Status: Per discussion with ARD personnel, when ARD requested
              approval from the COTR for the grant award, the SOW was included. ARD
              provided the approval for our review. Adequate corrective action has been
              implemented by ARD and this finding has been resolved.


  I.   Internal Controls

          1. Condition: No delegation of authority was in place.

              Current Status: We interviewed key employees and noted that the delegation of
              authority is outlined and referenced in several sections of the local accounting
              handbook. Additionally, MHM performed a walk-through with key finance
              personnel and documented key controls for significant transaction cycles, noting
              proper segregation of duties and delegation of authority. Adequate corrective
              action has been implemented by ARD and this finding has been resolved.




                                             43
                                                                               APPENDIX A

                                     TETRA TECH ARD

                            Financial Audit of Costs Incurred under
                             Contract No. 306-C-00-08-00515-00

                                          (Continued)


Review of Prior Findings and Recommendations

          2. Condition: ARD was missing Goods Received Notes and Confirmation of
             Services Rendered.

             Current Status: ARD was unable to locate the subject material. However, it was
             not known to which vendors this exception applied. As such, this finding has not
             yet been resolved.

          3. Condition: No travel authorization existed for local travel.

             Current Status: Per our discussion with ARD personnel, ARD has used emails
             as a form of authorizing travel within the country. However, it has changed its
             practice to a signed form. International travel is authorized by the COTR and is
             attached to all payments. We inspected payments and noted proper approval.
             Adequate corrective action has been implemented by ARD and this finding has
             been resolved.

          4. Condition: Purchase requisitions and purchase orders were prepared at the
             same time.

             Current Status: Per discussion with ARD personnel, the purchase requisition
             and purchase order may be prepared the same day since many purchases are
             made the same day as the item is requested. We reviewed supporting
             documentation and found it to be adequate. Adequate corrective action has
             been implemented by ARD and this finding has been resolved.


Procurement Review

General Observations:

   1. Condition: There was clear and recent evidence of an apparent effort by ARD to
      compile the procurement files for USAID review, indicating that the contractor did not
      build these files during the ordinary course of business but has been making last minute
      efforts to compile the documentation for USAID review.

      Current Status: We reviewed policies and procedures and noted an improved filing
      system was put in place, and personnel had been instructed to review and ensure that
      files conformed to this system prior to the USAID review. Files are placed in a
      consolidated file prior to the review. Adequate corrective action has been implemented
      by ARD and this finding has been resolved.




                                              44
                                                                               APPENDIX A

                                   TETRA TECH ARD

                           Financial Audit of Costs Incurred under
                            Contract No. 306-C-00-08-00515-00

                                        (Continued)


Review of Prior Findings and Recommendations

   2. Condition: On several occasions, no executed subcontracts were in place while the
      request for Contracting Officer consent had been submitted to USAID and the consent
      had been granted several months prior (Rift Valley Agriculture (RVA) and Relief
      International (RI) subcontracts). ARD explained that the final details, such as SOW,
      were still being negotiated.

      Current Status: We interviewed key personnel and noted that consent to subcontract to
      RVA and RI was given in ADP contract (No. 306-C-00-08-00515-00) modification 2,
      which authorized an expansion of the ADP/SW activity. Upon receiving the prime
      contract modification, ARD issued each subcontractor a letter contract to allow them to
      begin work while a subcontract was negotiated and finalized, and a detailed SOW for
      each was worked out. A specific consent package was not submitted for these
      subcontractors. Adequate corrective action has been implemented by ARD and this
      finding has been resolved.

   3. Condition: All Excluded Parties List System screenshots were dated April 13. 2009,
      which was after the dates of all subcontracts’ awards.

      Current Status: We interviewed key personnel and confirmed through our testwork that
      in the past the Excluded Parties List was checked, but screen shots were not printed.
      However as part of ARD’s strengthened filing system, the staff is now printing the screen
      shots and placing them in the file. Adequate corrective action has been implemented by
      ARD and this finding has been resolved.


Subcontract No. ADP-NHB-001 with Noor Heravi Brothers Company, Ltd.:

   1. Condition: The screenshot of the Excluded Parties List System was dated April 13. 2009,
      which was after the subcontract was executed.

      Current Status: We interviewed key personnel and confirmed through our testwork that
      in the past the Excluded Parties List was checked, but screen shots were not printed.
      However as part of ARD’s strengthened filing system, the staff is now printing the screen
      shots and placing them in the file. Adequate corrective action has been implemented by
      ARD and this finding has been resolved.

   2. Condition: The negotiation memorandum did not indicate that the evaluation committee
      was reduced from 4 members to 3 during the final evaluation.

      Current Status: We interviewed key personnel, reviewed the subject file and noted that
      the first paragraph of page 3 stated “Please note that three reviewers reviewed the



                                             45
                                                                                APPENDIX A

                                    TETRA TECH ARD

                            Financial Audit of Costs Incurred under
                             Contract No. 306-C-00-08-00515-00

                                         (Continued)


Review of Prior Findings and Recommendations

       bid…“ The final review was performed on a Saturday, which was Dr. Abdullah’s day off.
       Given time constraints, he was not called in to participate in the final review. Adequate
       corrective action has been implemented by ARD and this finding has been resolved.


RFA for Market Driven Veterinary Services:

   1. Condition: It was not apparent from the file where the RFA was posted or advertised.

       Current Status: We interviewed key personnel, reviewed the subject file and noted that
       ARD advertised on “Akbar” (http://www.acbar.org). ARD has implemented a new
       procedure to note advertising in the files for future RFAs. Adequate corrective action
       has been implemented by ARD and this finding has been resolved.

   2. Condition: The opening and closing dates of the solicitation were not apparent from the
      RFA.

       Current Status: We reviewed the subject file and noted documentation existed to show
       ARD opened the bid on March 1, 2009, and the RFA stated the closing date was March
       20, 2009. Adequate corrective action has been implemented by ARD and this finding
       has been resolved.

   3. Condition: The majority of evaluation committee members’ numerical ratings were not
      backed by comments.

       Current Status: We interviewed key personnel and noted that the ARD Grants
       Management Manual does not require written comments to justify the ratings unless
       committee members feel the need to do so. ARD believes comments are optional and
       has not updated the evaluation. This finding has not yet been resolved.


1st subcontract with Sheer Peer for Farah Compound renovation contract SP-001:

   1. Condition: The subcontract total was unclear. The first page of the subcontract states
      $90,976 as the total price, while Section 3.2, Payment Schedule, stated the total price
      was $135,830.

       Current Status: We reviewed the subject file and noted the $90,976 shown on the first
       page is incorrect and should read $135,830. The file contains invoices totaling $135,830.
       Adequate corrective action has been implemented by ARD and this finding has been
       resolved.



                                              46
                                                                               APPENDIX A

                                    TETRA TECH ARD

                           Financial Audit of Costs Incurred under
                            Contract No. 306-C-00-08-00515-00

                                         (Continued)


Review of Prior Findings and Recommendations

   2. Condition: No losing proposals were contained in the file although ARD received four
      bids in response to the solicitation according to the memorandum of negotiation.

      Current Status: We reviewed the subject file and noted that copies of the losing
      proposals have been inserted into the file. Adequate corrective action has been
      implemented by ARD and this finding has been resolved.


Subcontracts Contract SP-002:

   1. Condition: A subcontract with Sheer Peer Construction Company (SPRCC) was signed
      in the amount of $85,932 for the renovation of the Farah compound on September 7,
      2008, while the renovation was completed before September 5, 2008 and ARD’s
      technical representative certified the completion of the renovation on September 5, 2008.
      As per contract clause #2, the period of the contract was three months starting from May
      27, 2008 to August 27, 2008. USAID questioned these costs.

      Current Status: We reviewed the subject file and confirmed that although the contract
      was not dated by the COP, activities were performed during the contract period of May
      27, 2008 through August 27, 2008. ARD indicated the dating of the subcontract was an
      isolated incident and it remained committed to following all contracting policies and
      procedures. Adequate corrective action has been implemented by ARD and this finding
      has been resolved.

   2. Condition: No negotiation memorandum was included in the file to explain/justify the
      need for the work. The contract was apparently been awarded on a sole source basis.
      However, no documentation was evident from the file to justify other than a full and open
      competition and ARD’s award decision.

      Current Status: We reviewed the subject file and confirmed that the negotiation
      memorandum was completed and is documented in the file. It was noted that the
      document was originally missing during the time of the Office of Acquisition and
      Assistance review. Adequate corrective action has been implemented by ARD and this
      finding has been resolved.

   3. Condition: The file contained documents unrelated to the procurement documentation
      (e.g. invoice approvals under first subcontract with SPRCC, several copies of the
      negotiation memorandum for the first subcontract with Sheer Peer, etc.).




                                             47
                                                                                   APPENDIX A

                                     TETRA TECH ARD

                            Financial Audit of Costs Incurred under
                             Contract No. 306-C-00-08-00515-00

                                          (Continued)


Review of Prior Findings and Recommendations

      Current Status: We reviewed the subject file and noted that the invoice approval and
      negotiation memorandum have been refiled into the SPRCC file. Adequate corrective
      action has been implemented by ARD and this finding has been resolved.


RVA Subcontract #ADP-RVA-001 for Agricultural Trainings, Extension and Contract Farming
Projects in Farah:

   1. Condition: A subcontract was not fully executed as of April 15, 2009, although CO
      consent was requested in late February 2009 and was granted on March 5, 2009.

      Current Status: We reviewed the subject file and noted that the RVA Farah subcontract
      was in negotiation from the time of receiving consent until April 15, 2009 when the
      contract was executed by both parties. A copy of the fully executed contract dated May
      5, 2009 is now in the file. Adequate corrective action has been implemented by ARD
      and this finding has been resolved.

   2. Condition: Multiple copies of the Contracting Officer consent letter were present in the
      file.

      Current Status: We reviewed the subject file and noted that copies of the draft versions
      of the contract were in the file prior to April 15, 2009. The copies had been included in
      the file to track comments back and forth between Kabul and Australia (RVA's Home
      Office). These draft versions were removed upon contract execution. Adequate
      corrective action has been implemented by ARD and this finding has been resolved.

   3. Condition: Documents not related to the procurement action were included in the file
      (e.g. February 1-28, 2009 invoice under another subcontract with RVA).

      Current Status: We reviewed the subject file and noted that a copy of RVA's first invoice
      against the Helmand Province contract was inadvertently filed in the Farah contract
      folder. As such, the improperly filed invoice has been refiled to the correct file. Originals
      of RVA's Helmand invoices are maintained in Burlington where this contract is
      administered. Adequate corrective action has been implemented by ARD and this
      finding has been resolved.


Afghan Bena Subcontract:

   1. Condition: The excluded parties check was completed on April 13, 2009 while the
      subcontract was signed on February 22, 2009.



                                               48
                                                                                  APPENDIX A

                                     TETRA TECH ARD

                            Financial Audit of Costs Incurred under
                             Contract No. 306-C-00-08-00515-00

                                          (Continued)


Review of Prior Findings and Recommendations

       Current Status: We reviewed the subject file and noted that while in the past the
       Excluded Parties List was checked, the screen shots were not printed. ARD now is
       printing the screen shots and placing them in the file. Adequate corrective action has
       been implemented by ARD and this finding has been resolved.

   2. Condition: Modification #1 to the subcontract was not in the file.

       Current Status: We reviewed the subject file and noted that at the time of the previous
       audit, Modification #1 had not yet been signed. However, the copy in the file at that time
       was a working copy and the original has since been signed. Adequate corrective action
       has been implemented by ARD and this finding has been resolved.

   3. Condition: Initial bids from the other two unsuccessful bidders were not in the file.

       Current Status: We reviewed the subject file and noted that ARD has not been able to
       locate the proposals from the unsuccessful bidders. As such, this file does not have the
       documentation for the two unsuccessful bidders. This issue did not occur as part of our
       audit. Adequate corrective action has been implemented by ARD and this finding has
       been resolved.

   4. Condition: The tally sheet was not in compliance with tabs.

       Current Status: We reviewed the subject file and noted that the tally sheet did not
       conform to the respective tabs in the file. ARD has updated its procedure manual so
       that the tally sheet labeling is now properly documented for ARD staff to follow in the
       future. Adequate corrective action has been implemented by ARD and this finding has
       been resolved.


Flag International Subcontract:

   1. Condition: The excluded parties check was completed on April 13, 2009 while the
      subcontract was signed on January 25, 2009.

       Current Status: We reviewed the subject file and noted that while in the past the
       Excluded Parties List was checked, the screen shots were not printed. ARD now is
       printing the screen shots and placing them in the file. Adequate corrective action has
       been implemented by ARD and this finding has been resolved.

   2. Condition: Copies of the two unsuccessful bids were not in the file.




                                               49
                                                                                 APPENDIX A

                                     TETRA TECH ARD

                             Financial Audit of Costs Incurred under
                              Contract No. 306-C-00-08-00515-00

                                          (Continued)


Review of Prior Findings and Recommendations

       Current Status: We reviewed the subject file and confirmed that the two unsuccessful
       bids were not documented in the file. Per interview of key ARD personnel, ARD has
       hired an internal control specialist who will be responsible for maintaining all copies of
       unsuccessful bids in the respective files. This issue did not occur as part of our audit.
       Adequate corrective action has been implemented by ARD and this finding has been
       resolved.

   3. Condition: The tally sheet, which was a checklist for all required elements to be included
      in the subcontractors file, was not in compliance with tabs.

       Current Status: We reviewed the subject file and noted that the tally sheet did not
       conform to the respective tabs in the file. ARD has updated its procedure manual so
       that the tally sheet labeling is now properly documented for ARD staff to follow in the
       future. Adequate corrective action has been implemented by ARD and this finding has
       been resolved.


Tribal Liaison Office Subcontract:

   1. Condition: The modification to the prime contract providing consent to the subcontract
      was executed on January 20, 2009, while the subcontract was effective January 26,
      2009 with a contract letter. The subcontract was issued April 13, 2009, but the signed
      copy was not in the file.

       Current Status: We reviewed the subject file and noted that the signed contract is now
       documented in the file. This contract was executed by both the Tribal Liaison Office
       (TLO) and ADP/SW on April 13, 2009. Adequate corrective action has been
       implemented by ARD and this finding has been resolved.

   2. Condition: Unrelated modification #3 to the prime contract was included in the file.

       Current Status: We reviewed the subject file and noted the document has been
       removed and correctly filed. Adequate corrective action has been implemented by ARD
       and this finding has been resolved.

   3. Condition: Unrelated unsigned modifications #1 and #2 to the J. E. Austin Associates,
      Inc. subcontract were included in the file.

       Current Status: We reviewed the subject file and noted the document has been
       removed and correctly filed. Adequate corrective action has been implemented by ARD
       and this finding has been resolved.



                                               50
                                                                              APPENDIX A

                                     TETRA TECH ARD

                            Financial Audit of Costs Incurred under
                             Contract No. 306-C-00-08-00515-00

                                          (Continued)


Review of Prior Findings and Recommendations

  4. Condition: The subcontract was unsigned.

     Current Status: We reviewed the subject file and noted that the contract was executed
     by both TLO and ADP/SW on April 13, 2009. Adequate corrective action has been
     implemented by ARD and this finding has been resolved.

  5. Condition: Initial bids for the TLO were not in the file.

     Current Status: We reviewed the subject file and noted that the TLO’s proposal in
     support of ARD's proposal was submitted to ARD Headquarters in Burlington, Vermont.
     A copy of this proposal is now in the Kabul files. Adequate corrective action has been
     implemented by ARD and this finding has been resolved.

  6. Condition: The negotiation memorandum was not in the file.

     Current Status: We reviewed the subject file and noted that ARD partnered with TLO in
     the expansion program. As such, the negotiation memorandum is not in the file.
     Adequate corrective action has been implemented by ARD and this finding has been
     resolved.

  7. Condition: The excluded parties check was completed on April 13, 2009.

     Current Status: We reviewed the subject file and noted that while in the past the
     Excluded Parties List was checked, the screen shots were not printed. ARD now is
     printing the screen shots and placing them in the file. Adequate corrective action has
     been implemented by ARD and this finding has been resolved.

  8. Condition: The tally sheet was not in compliance with tabs.

     Current Status: We reviewed the subject file and noted that the tally sheet did not
     conform to the respective tabs in the file. ARD has updated its procedure manual so
     that the tally sheet labeling is now properly documented for ARD staff to follow in the
     future. Adequate corrective action has been implemented by ARD and this finding has
     been resolved.


HDCAW Grant:

  1. Condition: An email attachment with score sheets for all applications was received,
     printed and filed on April 13, 2009, while the grant was awarded in late 2008.




                                               51
                                                                               APPENDIX A

                                    TETRA TECH ARD

                           Financial Audit of Costs Incurred under
                            Contract No. 306-C-00-08-00515-00

                                         (Continued)


Review of Prior Findings and Recommendations

       Current Status: The score sheet was dated in July 2008 and the grant was awarded in
       September 2008. The correct documents are now filed accurately. Adequate corrective
       action has been implemented by ARD and this finding has been resolved.

   2. Condition: The score sheet shows ADA with 285, CHA with 303, HDCAW with 282. It is
      unclear way the grant was awarded to the lowest scoring applicant.

       Current Status: According to ARD, the score sheet had some missing individual scores
       which skewed the total scores. The revised manual specifically outlines the process for
       scoring and ARD has hired a new grants administrator who will ensure these
       requirements are fully documented in the future. Adequate corrective action has been
       implemented by ARD and this finding has been resolved.

   3. Condition: A negotiation memorandum was not in the file.

       Current Status: ARD has a negotiation memorandum for HDCAW and it is now in the
       file. Adequate corrective action has been implemented by ARD and this finding has
       been resolved.

   4. Condition: A selection memorandum was not in the file.

       Current Status: The revised grant manual requires each award to have a selection
       memorandum in the file on a go forward basis. Adequate corrective action has been
       implemented by ARD and this finding has been resolved.


RI Subcontract:

   1. Condition: The modification to the prime contract providing consent to the subcontract
      was executed on January 20, 2009, while the subcontract was effective January 26,
      2009 through a letter contract. A final subcontract was not issued to date.

       Current Status: The subcontract is now signed by both parties. Adequate corrective
       action has been implemented by ARD and this finding has been resolved.

   2. Condition: Unrelated and unsigned modifications #1 and #2 to the Justin Associates, Inc.
      subcontract were included in the file.

       Current Status: The identified documents have been removed from the file. Adequate
       corrective action has been implemented by ARD and this finding has been resolved.




                                             52
                                                                                 APPENDIX A

                                     TETRA TECH ARD

                            Financial Audit of Costs Incurred under
                             Contract No. 306-C-00-08-00515-00

                                          (Continued)


Review of Prior Findings and Recommendations

  3. Condition: Unrelated modification #3 to the prime contract was filed in the file.

     Current Status: The identified documents have been removed from the file. Adequate
     corrective action has been implemented by ARD and this finding has been resolved.

  4. Condition: The initial proposals were not in the file.

     Current Status: A copy of RI’s proposal is now in the file. Adequate corrective action
     has been implemented by ARD and this finding has been resolved.

  5. Condition: The excluded parties check was completed on April 13, 2009.

     Current Status: We reviewed the subject file and noted that while in the past the
     Excluded Parties List was checked, the screen shots were not printed. ARD now is
     printing the screen shots and placing them in the file. Adequate corrective action has
     been implemented by ARD and this finding has been resolved.




                                               53
                                                                                   APPENDIX B

                                      TETRA TECH ARD

                             Financial Audit of Costs Incurred under
                              Contract No. 306-C-00-08-00515-00

                             Tetra Tech ARD Response to Findings

                      For the Period March 5, 2008 through March 4, 2011


Included below is ARD’s response received to the findings identified in this report. In addition to
the narrative response, ARD provided documentation that, in its opinion, supports its position on
various findings. Due to the voluminous and proprietary nature of this documentation, it has not
been included within this report. The documentation has been provided to SIGAR under
separate cover.


2013-1: Costs Incurred Exceed Individual CLINs

Management Response:

ARD respectfully disagrees with the audit finding recommendation that $1,768,356 should be
returned to USAID for costs incurred in excess of budget amounts for individual CLINs.

The totals were overrun for CLINs 1, 3, and 4, but as the Finding notes, the total cost to the
contract for all CLINs was under budget. The status of the CLIN totals was conveyed to USAID
on multiple occasions during the final six months of the project, verbally and in various written
communications. A request to realign the budgeted CLIN totals was submitted to USAID but
was never acted upon.

 • Contingency planning documentation in October and November 2010 contained actual
   CLIN totals;
 • The final quarterly report submitted to USAID in December 2010 (which was preceded by a
   draft in November which was also reviewed by USAID) notified USAID that the project had
   expended nearly all funds in CLINS 1, 3, and 4, while at the same time describing the
   activities that were already underway and those that were still planned; that report noted
   that though CLINs 1, 3, and 4 would exceed their totals because of these final activities, the
   difference would be covered by the balance of funds from CLIN 2;
 • A 22 December 2010 modification from USAID (Modification #12) realigned the CLIN
   budgets but only to revise the Price Schedule due to understated indirect costs that were in
   Modification #9;
 • On 9 January 2011, a request for a one-month no-cost extension was submitted which
   would have provided time to make final CLIN budget adjustments;
 • On 30 January 2011, representatives of ARD met with USAID staff at USAID/Afghanistan
   in Kabul and informed them that a realignment would be submitted;
 • On 5 February 2011, ARD’s Senior Vice President spoke by phone with the contract’s
   USAID COR to confirm that a realignment would be submitted; and
 • This phone call was followed by an email message on 9 February 2011, in which ARD
   informed USAID that a budget realignment request would be submitted as soon as possible
   but to assure final accuracy, it would have to be prepared and submitted after all final
   February invoices were submitted.


                                                54
                                                                                    APPENDIX B

                                      TETRA TECH ARD

                             Financial Audit of Costs Incurred under
                              Contract No. 306-C-00-08-00515-00

                             Tetra Tech ARD Response to Findings

                                           (Continued)


The budget realignment request was submitted on 11 March 2011 in order to assure its
complete accuracy. That request was never acted on by USAID.

There were a variety of mitigating circumstances that explain not only why the CLIN totals were
overrun, but also why it was in the government’s interest that the CLIN totals should be treated
as fungible.
  • The CLIN totals had to be fungible so that the project could respond to USAID’s needs and
     requests flexibly and responsively in an extremely fluid environment, and as the above
     demonstrates, that fungibility was conveyed to USAID;
  • Programmatically, the CLINs supported one another – activities were not separable but
     rather achieved objectives comprehensively;
  • This mutual programmatic support was illustrated in the project’s performance monitoring
     plan which showed how results were achieved through the efforts of tasks from various
     CLINs;
  • Because of this need to be mutually supporting, the assignment of task costs to CLINs was,
     to a degree, subjective; and
  • The CLIN funds were never attributed to separate funding sources and thus could be
     adjusted.

The last several months of the project were especially fluid. The rapidly changing security
environment and the possible institution of Presidential Directive #62 meant that there was
constant consideration and reconsideration of activities in an effort to plan for what tasks could
be implemented, and where and when they could be instituted, depending on what security
protocols were ultimately instituted. One result of that uncertainty was an acceleration of project
activities in order to achieve results prior to a threatened shut-down of all USAID activities
because of the security conditions. Some CLIN 2 activities were delayed or even canceled. To
compensate, activities in CLINS 1, 3, and 4 were enhanced to account for these unanticipated
circumstances (e.g., construction of the Farah Wholesale Market, distribution of additional
tractors and other farm implements, and distribution of pullets to women’s groups in Farah). As
a result, a high level of activity occurred up to the end of the project while a possible project
extension was discussed. This necessitated finalization of the CLIN adjustment at the very end
of the contract. Finally, and further complicating matters, the USAID Contracting Officer
assigned to the project was changed three times in the final several months of the project.

ARD would like to clarify the audit Finding statement that says: “In addition, there was a lack of
a crosswalk between the expenditure general ledgers provided to the individual CLINs
reported. As such, the FAS was presented by cost categories based on the latest budget
realignment submitted that was not approved by USAID.” The FAS was prepared to reflect the
actual total cost by CLIN against the last budget realignment that was reflected in Modification
Number 12. The contract budget reflected in section B.4 of the contract specified only the total
direct costs, indirect costs, and fixed fee by CLIN. The auditors requested an alternate FAS that


                                                55
                                                                                      APPENDIX B

                                       TETRA TECH ARD

                              Financial Audit of Costs Incurred under
                               Contract No. 306-C-00-08-00515-00

                              Tetra Tech ARD Response to Findings

                                            (Continued)


indicated the cost by CLIN for each line item of cost (direct labor, travel, subcontracts, etc.).
ARD provided this alternate FAS to the auditors as was requested.

ARD would also like to clarify the audit Finding statement that says: “Additionally, ARD was not
able to provide a crosswalk from the Excel file that included its costs to the individual CLINs in
the contract. Without such a crosswalk, it cannot be determined which individual costs were
aggregated to each CLIN. The total of the individual costs and the total of all CLINs were in
agreement.” The excel file that listed all of the expenditures charged to the contract contained
the following information:

 •   Vendor
 •   Amount
 •   Accounting Period
 •   ADP job cost number – 1062
 •   Account Cost Category (travel, allowances, etc.)
 •   Account Transaction Code (travel - per diem, travel - airfare, etc.)
 •   Account Task (equivalent to the CLIN).

The expenditures that were sampled can be cross-walked back to a particular CLIN or to the
allocation task. Some expenditures that benefited all four CLINs were allocated by formula.

Finally, ARD would like to clarify the audit Finding statement that says: “Additionally, due to the
acquisition of ARD by Tetra Tech, Inc., the old accounting system was not compatible with the
new accounting system. With the change to the new accounting system, historical information
was lost and ARD was not able to prepare a crosswalk from the accounting records to each
CLIN.” ARD was acquired by Tetra Tech on October 1, 2007. Tetra Tech requires that all
acquired companies convert their accounting systems to Tetra Tech’s Oracle-based system.
Compatibility of the accounting system was not an issue. ARD utilized the DELTEK accounting
system prior to converting to Oracle on October 1, 2009. All general ledger account balances as
of September 30, 2009 were transferred to the Oracle accounting system. This included all of
the line item and transaction code balances by CLIN for the ADP contract. The ending balances
as of September 30, 2009 became the opening balances as of October 1, 2009 in the Oracle
system. This is how all accounting system conversions are handled. ARD demonstrated to the
auditors that all of the ADP account balances carried over to Oracle, exactly. The historical
information was not lost as is asserted in the audit report. The data from contract inception to
September 30, 2009 was maintained in DELTEK while the data from October 1, 2009 to the end
of the contract was maintained in Oracle. We merged the data from both systems into one excel
spreadsheet so that the auditors could make their selections for audit.

We are attaching the final Contractor’s Performance Assessment Report (CPAR) that we
received from USAID on the ADP contract. It should be noted that ARD received a very good


                                                 56
                                                                                     APPENDIX B

                                       TETRA TECH ARD

                             Financial Audit of Costs Incurred under
                              Contract No. 306-C-00-08-00515-00

                              Tetra Tech ARD Response to Findings

                                            (Continued)


evaluation in the area of Cost Control. The Cost Control section of the CPAR discusses the
changes and additions to the scope of work that ARD encountered over the three year life of the
contract. This had a direct impact on the costs incurred by CLIN.

In summary, ARD disagrees with the recommendation that $1,768,356 should be returned to
USAID for costs incurred in excess of budget amounts for individual CLINs because USAID was
fully informed of the imbalance among CLINs; the imbalances occurred because of our efforts to
meet project objectives in a rapidly changing environment right up to the end of the contract and
with USAID’s direction and knowledge; the CLIN totals had to be fungible in order to manage
the project responsively; and the audit statements regarding the company’s accounting
procedures are inaccurate. It should also be noted that ARD’s final invoice which indicated the
CLIN overruns was thoroughly reviewed by USAID prior to payment.


2013-2: Missing or Insufficient Source Documentation to Support Expense

Management Response:

ARD respectfully does not agree with the total questioned direct costs of $181,712 plus $26,155
in associated indirect costs. It should be noted that 99.9% of the audited costs were located and
properly supported with adequate supporting documentation.

Salaries & Wages - $27,067

The majority of the questioned costs ($13,933) are attributable to payroll period (12/16/09 –
1/15/2010) for the Farah office. It appears that there were recalculations made for payroll
between the distribution in the Farah office and the recording of the expenditure in the Kabul
office. The payroll distribution was made to the local staff but the payroll calculation does not
quite tie to the accounts.

Additionally, $11,662 of these costs were cleared by one of the auditors on the final exception
report.

Subcontracts - $79,325

The majority of this is due to a single voucher from ARDA Construction, Co. ($78,500) for trellis
bars in Helmond Province. While the DV was not fully executed and signed by the Chief of Party
or the ADP Finance Specialist, the expenditure was made 13 November 2010 in payment for
the receipt of 5,000 T-Bars. Helmond Provincial Manager (Dr. Fazel Elahi) signed the attached
Authorization for Subcontract payment. The cash payment slip and delivery receipt are fully
executed indicating that full payment of $78,500 was made to ARDA Construction Company in



                                                 57
                                                                                    APPENDIX B

                                      TETRA TECH ARD

                             Financial Audit of Costs Incurred under
                              Contract No. 306-C-00-08-00515-00

                             Tetra Tech ARD Response to Findings

                                           (Continued)


payment of ARDA invoice number ARDA-7003. Copies of the DV, ARDA purchase order, cash
payment slip, and delivery receipt are attached.

Travel & Transportation - $16,606

Almost all of this amount consists of two DVs ($12,740 & $3,259) that, again, were recorded in
outlying offices during the close-out period and misplaced prior to being recorded and
consolidated in the Kabul office.

ODC’s - $58,714

$52,715 of this balance was recorded in outlying offices during the final months of the project
and, due to close-out activities, some documentation was misplaced.

In general, approximately 89% of questioned costs occurred during the final two months of
outlying office operations, and documentation was misplaced or otherwise not provided. The
project financial documentation and filing systems were adequate for the life of the project, but
did experience interruptions for some local costs during the close-out period and shipping back
of the files to the Kabul office and ultimately back to Burlington, VT.

We do agree that some documentation was lost or misplaced in the field. However, rather than
$181,712 in questioned direct costs, the figure should be reduced to $91,550 to reflect the
payroll items that were cleared by the auditors and the $78,500 ARDA subcontract payment
which is adequately supported.


2013-3: Lack of Adequate Proof of Payment in Cash-for-Work Program

Management Response:

We respectfully disagree with the audit finding. The procedure ARD used to verify CfW
payments in the beginning of the project was accepted practice for work of this kind. The
$753,146 in payments were sufficiently supported with timely records, especially when the
elders’ and ARD staff members’ presence is taken into consideration. We further refined the
procedure in October 2008 of our own volition in an effort to strengthen implementation; the
change did not imply that the original practice was either inherently suspect or faulty.

During the initial phase of ADP, USAID put strong emphasis on the Cash for Work (CfW)
program as a key instrument for both improving local infrastructure, security stabilization, and to
demonstrate the U.S. commitment to improve local lives through distribution of cash to
individual Afghan families. As a result, ARD was tasked with immediate implementation of CfW



                                                58
                                                                                   APPENDIX B

                                      TETRA TECH ARD

                             Financial Audit of Costs Incurred under
                              Contract No. 306-C-00-08-00515-00

                             Tetra Tech ARD Response to Findings

                                           (Continued)


programs in Farah. In order to effectively work in any local community, ARD had to first obtain
approval of local governing entities (Shura councils) that represented the interests of the local
community. These councils consisted of local village elders and community leaders. Initial CfW
agreements were made with the Shura to ensure operational safety and security, community
commitment to the project, and community approval for the proposed infrastructure activity.

For initial CfW programs (like DV200/Project 421), payments were made directly through Shura
(community) elders whose responsibility was to gather workers and pay them. It was also
practice that an ADP staff member was present when payments were made. It was a common
practice for elders to fill out project timesheets based on the number of laborers who worked on
each project. The imprimatur of the Shura also ensured that any laborer hired to work on the
project understood that they had a responsibility to the community to work on the project and to
do a good job.

It is possible that Shura members took it upon themselves to fill out these timesheets as they
were distributing the payments directly to the workers themselves. Where it would appear in this
instance that one person’s fingerprint was used, a Shura member likely took the liberty of filling
out timesheets. However, the elders’ involvement as well as the presence of an ADP staff
member assured that any payments met the requirements of accurate recordkeeping.

The practice of having the Shura handle the payments was discontinued in October of 2008 (not
January 2009), and starting in October 2008, one of the ADP staff members went to each
project site to document and account for each local worker. Once the procedure changed, we
required that an individual worker was available to affix his own fingerprint when timesheets
were filled out.


2013-4: Indirect Costs were Overclaimed

Management Response:

ARD did not over-claim indirect costs as noted in the auditor’s report.

ARD routinely applies retroactive indirect rate adjustments when the provisional rates for prior
years have been updated on the NICRA. In the case of the ADP contract, a revised NICRA was
issued on November 22, 2010 revising the provisional rates for FY2008, 2009, 2010, and for
FY2011 until amended. An analysis for FY2008 to FY2010 indicated that the revised indirect
rates generated an additional cost to the contract of $59,950.94. The indirect rate analysis for
FY2008 through FY2010 is attached. The auditors only looked at the two indirect rates that ran
under the billed provisional rates: fringe benefits and material handling overhead. Two other
indirect rates, overhead and G&A, ran significantly over the billed provisional rates. All four



                                                59
                                                                                   APPENDIX B

                                      TETRA TECH ARD

                             Financial Audit of Costs Incurred under
                              Contract No. 306-C-00-08-00515-00

                             Tetra Tech ARD Response to Findings

                                           (Continued)


indirect rates need to be taken into consideration when doing an analysis of prior period indirect
rates. The complete analysis generated an additional indirect cost to the contract of $59,950.94.
ARD would have billed these costs to the contract but since we wound up in an overrun
situation, these additional costs were not billed.

The auditor’s assertion that ARD over-billed $312,450 in indirect costs is incorrect.




                                                60
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs
                                        •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
